<html>
<title> - STAKEHOLDER PERSPECTIVES ON THE IANA TRANSITION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            STAKEHOLDER PERSPECTIVES ON THE IANA TRANSITION

=======================================================================
 				 HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

                           Serial No. 114-41
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                             _____________
                             
                             
                         U.S. GOVERNMENT PUBLISHING OFFICE
96-987                          WASHINGTON : 2016                         
                    
                    
________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>  
                    
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    94

                               Witnesses

Steve Delbianco, Executive Director, Netchoice...................     7
    Prepared statement...........................................    10
Danielle Kehl, Senior Policy Analyst, New America's Open 
  Technology Institute...........................................    26
    Prepared statement \1\.......................................    28
Audrey Plonk, Director, Global Cyber Security and Internet 
  Governance Policy, Intel Corporation...........................    37
    Prepared statement...........................................    39
Matthew Shears, Representative and Director, Global Internet 
  Policy and Human Rights Project Center for Democracy and 
  Technology.....................................................    48
    Prepared statement...........................................    50
Brett Schaefer, Senior Research Fellow in International 
  Regulatory Affairs, The Heritage Foundation....................    55
    Prepared statement...........................................    57

                           Submitted Material

Article entitled, ``What's in a (Domain) Name?'', by Peter Roff, 
  U.S. News & World Report, May 13, 2015, submitted by Mr. 
  Shimkus........................................................    95

----------
\1\ The attachment to Ms. Kehl's statement can be found at: 
  http://docs.house.gov/meetings/if/if16/20150513/103448/hhrg-
  114-if16-wstate-kehld-20150513.pdf.

 
            STAKEHOLDER PERSPECTIVES ON THE IANA TRANSITION

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:19 p.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Barton, 
Shimkus, Blackburn, Lance, Guthrie, Olson, Kinzinger, 
Bilirakis, Johnson, Long, Ellmers, Collins, Cramer, Eshoo, 
Doyle, Clarke, Loebsack, Matsui, McNerney, Lujan, and Pallone 
(ex officio).
    Staff present: Ray Baum, Senior Policy Advisor for 
Communications and Technology; Leighton Brown, Press Assistant; 
Andy Duberstein, Deputy Press Secretary; Gene Fullano, 
Detailee, Telecom; Kelsey Guyselman, Counsel, Telecom; Grace 
Koh, Counsel, Telecom; David Redl, Counsel, Telecom; Charlotte 
Savercool, Legislative Clerk; Jessica Wilkerson, Oversight 
Associate, O&I; Jeff Carroll, Democratic Staff Director; David 
Goldman, Democratic Chief Counsel, Communications and 
Technology; Lori Maarbjerg, Democratic FCC Detailee; Margaret 
McCarthy, Democratic Senior Professional Staff Member; and Ryan 
Skukowski, Democratic Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Now that we have killed the lights, we will 
call the subcommittee on Communications and Technology to 
order, and welcome our witnesses here today, and our 
colleagues. Thanks for your patience with our late start. We 
had a vote on the floor, as you know, but we appreciate your 
being here today, and look forward to your testimony.
    From the time the Administration announced their intent to 
transition IANA functions from ICANN to the international 
multi-stakeholder community, I have had very serious concerns 
about the potential risks associated with that move. We have 
said time and again that this is far too important to rush, and 
that we must carefully consider all of the consequences and 
outcomes before we ring a bell that cannot be un-rung.
    This subcommittee has been committed to oversight of the 
transition process, and ensuring that there are safeguards in 
place to improve the odds of a successful transition, and 
preserve the Internet we all committed to protecting. Last 
Congress we held a hearing on this topic and passed the Dot Com 
Act out of the full Committee almost exactly a year ago. The 
goals of the Dot Com Act are consistent with our position. It 
is the appropriate role of this subcommittee to oversee the 
NTIA, and, in this case, ensure that it thoroughly evaluates 
any proposal. As part of this oversight, we have already asked 
the GAO to begin an inquiry into the process that examines the 
existing contract, risks to be considered, and any safeguards 
that can be put into place to reduce the threats to the future 
operations and functions of the Internet.
    Many have come to us to emphasize the importance of the 
IANA transition to the continued success of the multi-
stakeholder model of governance, and to urge us to be mindful 
of the way the international community perceives our actions. 
We recognize these considerations, but we also feel it would be 
irresponsible to ignore the very real risks associated with a 
relinquishment of the U.S. role in Internet governance, no 
matter how symbolic. This is why we have taken the measured 
approach that we will discuss today.
    NTIA put forward a set of criteria that they say any 
acceptable transition proposal must meet, all of which are 
essential to ensuring a vibrant Internet, should NTIA 
transition IANA to the multi-stakeholder community. NTIA should 
be applauded for this, and for its willingness to stick to 
these criteria, despite the difficulty in meeting them. Our 
goal, through this legislation, and our efforts in the 
subcommittee, is to ensure that these conditions are met, and 
that the myriad unforeseen complications that could arise in 
meeting them are addressed.
    I am pleased to report the staff from both sides of the 
aisle have been working together to produce an amendment to the 
Dot Com Act that meets these goals that we all share without 
unduly burdening the agency as it works towards its goal. While 
NTIA works within its proper role in the multi-stakeholder 
model, we too are working with our proper role as oversight 
authority. While we have not reached agreement on final text, 
our discussions have been very promising, and there is an 
important role for Congress in this transition, and I commend 
the staff for their hard work.
    I would also like to take a moment to touch on the timeline 
of the transition. It seems that everyone, including NTIA 
Administrator Larry Strickling, has acknowledged that the 
important work needed to facilitate a transition cannot be done 
before the existing contract expires on September 30, 2015. I 
urge NTIA to exercise the 2-year renewal option on the 
contract. Doing so allows the deliberative process to continue 
without artificial pressure or time constraints, and this won't 
provide any additional hurdle to the transition itself. Should 
NTIA and ICANN come to agreement on an acceptable proposal 
before the 2-year period is up, the contract can be cancelled 
to facilitate that transition.
    I am pleased to have our panel of stakeholder witnesses 
here today to give us an update on their views of this 
transition. In the past year thousands of hours of hard work 
have taken place, many by our witnesses at the witness table 
today, to move this forward. Our last hearing gave voice to 
concerns that have been incorporated into the work of the 
multi-stakeholder working groups, and this is an opportunity 
for us to once again play our role in the process. I thank the 
witnesses for being here, and I look forward to your expertise.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    From the time the administration announced their intent to 
transition the IANA functions from ICANN to the international 
multi-stakeholder community, I've had very serious concerns 
about the potential risks associated with the move. We've said 
time and again that this is far too important to rush, and that 
we must carefully consider all of the consequences and outcomes 
before we ring a bell that cannot be unrung.
    This subcommittee has been committed to oversight of the 
transition process and ensuring that there are safeguards in 
place to improve the odds of a successful transition and 
preserve the Internet we are all committed to protecting. Last 
Congress, we held hearings on this topic and passed the DOTCOM 
Act out of the full Committee almost exactly a year ago. The 
goals of the DOTCOM Act are consistent with our position--it is 
the appropriate role of this subcommittee to oversee the NTIA, 
and in this case ensure that it thoroughly evaluates any 
proposal. As part of this oversight, we've already asked the 
GAO to begin an inquiry into the process that examines the 
existing contract, risks to be considered, and any safeguards 
that can be put into place to reduce threats to the future 
operations and functions of the Internet.
    Many have come to us to emphasize the importance of the 
IANA transition to the continued success of the multi-
stakeholder model of governance, and to urge us to be mindful 
of the way the international community perceives our actions. 
We recognize these considerations, but we also feel it would be 
irresponsible to ignore the very real risks associated with a 
relinquishment of the U.S. role in Internet governance, no 
matter how symbolic. This is why we have taken the measured 
approach we will discuss today.
    NTIA put forward a set of criteria that they say any 
acceptable transition proposal must meet, all of which are 
essential to ensuring a vibrant Internet should NTIA transition 
IANA to the multi-stakeholder community. NTIA should be 
applauded for this, and for its willingness to stick to these 
criteria despite the difficulty in meeting them. Our goal 
through this legislation and our efforts in the subcommittee is 
to ensure that these conditions are met and that the myriad 
unforeseen complications that could arise in meeting them are 
addressed.
    I am pleased to report that staff from both sides of the 
aisle have been working together to produce amendment to the 
DOTCOM Act that meets these goals that we all share without 
unduly burdening the agency as it works toward its goal. While 
NTIA works within its proper role in the multi-stakeholder 
model, we too are working within our proper role as oversight 
authority. While we have not reached agreement on final text, 
our discussions have been very promising. There is an important 
role for Congress in this transition and I commend the staff 
for their hard work.
    I'd also like to take a moment to touch on the timeline of 
the transition. It seems that everyone, including NTIA 
Administrator Larry Strickling, has acknowledged that the 
important work needed to facilitate a transition cannot be done 
before the existing contract expires on September 30, 2015. I 
urge NTIA to exercise the two-year renewal option on the 
contract. Doing so allows the deliberative process to continue 
without artificial pressure or time constraints. And this won't 
provide any additional hurdle to the transition itself. Should 
NTIA and ICANN come to agreement on an acceptable proposal 
before the 2-year period is up, the contract can be cancelled 
to facilitate the transition.
    I'm pleased to have our panel of stakeholder witnesses here 
today to give us an update on their views of the transition. In 
the past year, thousands of hours of hard work have taken 
place--many by our witnesses--to move this forward. Our last 
hearing gave voice to concerns that have been incorporated into 
the work of the multi-stakeholder working groups, and this is 
an opportunity for us to once again to play our role in this 
process. I thank the witnesses for being here and look forward 
to your expertise.

    Mr. Walden. With that, I would recognize the gentlelady 
from California, my friend, the Ranking Member of the 
Subcommittee, Ms. Eshoo.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good afternoon to 
all the members, and to all of our witnesses. We welcome you 
here, and we thank you for your willingness to come and share 
your thoughts with us about--this is an important topic. 
Earlier this year Singapore's Minister of Communication and 
Information, Dr. Yaacob Bin--Ibrahim stated that ``no one 
person, organization, or even country has a monopoly on the 
expertise and wisdom needed to meet the challenges that we are 
facing on the Internet on a day to day basis.''
    I agree with that quote, and his thought. It is why 
Congress, on a bipartisan, bicameral basis, has consistently 
stated that the United States should continue to preserve and 
advance the multi-stakeholder governance model under which the 
Internet has thrived. Our leadership in the IANA transition is 
critical, but I think inserting a unilateral role for our 
government, as the Dot Com Act does, undermines the legitimacy 
of the multi-stakeholder model, and it emboldens those that 
don't agree with us. Some call them our enemies, but I think 
that emboldens them.
    For nearly 20 years it has been U.S. policy to transition 
the government's role in administering the domain name system 
to the multi-stakeholder global community, and by requiring the 
GAO to study the pros and cons of making such a transition, the 
Dot Com Act fails to recognize this history. Equally concerning 
is the opposition from the stakeholder community, including 
NetChoice's Steve DelBianco, who is here, and is going to be 
testifying today, that a post-analysis by GAO of the transition 
proposal is no longer necessary.
    The success of the IANA transition depends on built-in 
mechanisms for transparency and accountability, and a 
commitment by ICANN to resist--Mr. Chairman, I don't think the 
committee is in order. That means stop gabbing, to my left. It 
is distracting.
    The success of the IANA transition depends on built-in 
mechanisms for transparency and accountability, and a 
commitment by ICANN to resist any expansion of the role 
government or inter-governmental organizations may play in 
ICANN's deliberations. Now, if the majority shares these goals, 
and I believe that you do, then we should work together on a 
bipartisan alternative to the Dot Com Act which provides a 
reasonable period of time for Congress, and the general public, 
to review the IANA transition proposal. With responsible 
oversight, a successful transition of those functions will 
preserve the Internet's guiding principles of openness, of 
security, of stability, and resiliency, and ensure ICANN cannot 
be exposed to government capture.
    And, again, I would like to thank the panel of witnesses. 
They are really esteemed individuals in each one of their 
spheres of influence, and I think that each one of them 
understands the Internet's guiding values, and the importance 
of the multi-stakeholder model. So, again, I thank you, and, 
Mr. Chairman, I yield back the balance of my time, unless 
someone else would like it. Doris, would you like my time? I 
would be glad to yield to you, to the gentlewoman from 
California.
    Ms. Matsui. Thank you very much, my fellow colleague. Got 
the wrong thing here. In 2012, with strong bipartisan 
congressional backing, the Administration's position was 
strengthened in re-affirming the current multi-stakeholder 
approach that has allowed the Internet to flourish here in the 
United States and around the world. Congress must stay united 
moving forward. I am pleased to hear that the Administration 
will not support any proposal that undermines the openness of 
the Internet. With over two billion users, we all know the 
Internet has become a necessity, and not a luxury. It plays a 
dominant role in the world economy. We need to continue to 
promote innovation and openness of the Internet around the 
globe. That has been the hallmark of U.S. policy. I believe the 
multi-stakeholder approach must continue to define Internet 
governance, and I yield back the balance of my time.
    Mr. Walden. Gentlelady yields back the balance of her time. 
The Chair recognizes the gentleman from Ohio, the Vice-Chair of 
the Subcommittee, Mr. Latta.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thank our witnesses for being with us today. The Internet has 
quickly integrated into our everyday lives, and has become a 
central platform for job creation, education, business 
development, health care, and free expression. Therefore, the 
preservation of the Internet's openness and freedom should 
remain a high priority as NTIA prepares to transition the U.S. 
Government's role in the Internet's--numbering functions to a 
global multi-stakeholder community.
    I thank the gentleman, my friend from Illinois, for 
introducing the Dot Com Act to ensure proper oversight of this 
transition. This bill will safeguard our national security 
interests, and allow citizens to continue to freely navigate 
the Internet. I look forward to hearing from our witness. And, 
Mr. Chairman, I would, at this time, yield to the gentleman 
from Illinois the balance of my time.
    Mr. Shimkus. Thank you. I want to thank Chairman Walden and 
Chairman Upton for holding this hearing today. While we all use 
the Internet, few Americans, and I am included--few Americans 
truly understand the underlying Internet architecture. Perhaps 
that is because a system that has been in place has worked so 
well that we don't need to think about it. The Internet remains 
a free and open place to exchange information and ideas, and 
the goal of my legislation has always been to preserve that for 
future generations.
    What we wanted to do with the Dot Com Act has always been 
to exercise vigorous oversight on the transition, and make sure 
it is done right, the old trust but verify statement. As a 
legislative body, specifically in the Telecom Subcommittee, we 
have authority and responsibility to oversee the activities of 
NTIA. We get one bite at the apple with this. We would be 
negligent in our responsibilities to not sure that NTIA, and 
the Administration, is living up to its promises.
    NTIA says the proposal must, and this is from them, support 
and enhance the multi-stakeholder model, maintain the security, 
stability, and resiliency of the Internet DNS, meet the needs 
and expectations of the global customers and partners of the 
IANA services, and maintain the openness of the Internet. I 
have concerns that these requirements that NTIA has put forth 
are vague at best, but allowing Congress a chance to review any 
proposal would hold the Administration's feet to the fire 
before any transition could occur. If the proposal isn't as 
promised, and ICANN hasn't made the necessary changes to 
facilitate the transition, then Congress has the chance to 
engage in other legislative avenues to ensure that Americans 
will continue to access a free and open Internet.
    Bipartisan staff discussions are ongoing, and we are 
hopeful that an agreement can be reached to hold NTIA 
accountable to their own criteria and move it to the floor, and 
to the President's desk. We just have to be careful, by 
exercising congressional oversight of NTIA, because there is no 
turning back once this moves forward. And, Mr. Chairman, I 
would like to submit for the record an article that came out 
today, ``What Is In A Domain Name?'' by Peter Roff, and it was 
in U.S. News & World Report.
    Mr. Walden. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I yield back my time.
    Mr. Walden. Gentleman yields back the balance of his time. 
Chair recognizes the Ranking Member from New Jersey, Mr. 
Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. The subject of 
today's hearing is the transition of the Internet Assigned 
Numbers Authority, or IANA, and this function is sometimes 
called the Internet's phone book of Internet names and numbers, 
and, more simply, it is what allows Internet users to easily 
navigate the Web. The Internet is an unprecedented platform for 
economic opportunity and democratic free expression. It is used 
by three billion people around the globe. And because this 
phone book has worked so well, very few of us ever have to 
think about how it works, we just know it works. And that is a 
credit to a successful Internet governance model that uses a 
multi-stakeholder approach to decision-making. We all want this 
success story to continue, and that is why the U.S. Government 
has taken steps over the past two decades to get out of the way 
and allow the private sector to assume management of the domain 
name system. Put another way, we think the future of the 
Internet should be determined by businesses, civil society, and 
technical experts.
    Both Republican and Democratic Administrations have 
supported the idea that the Internet should be governed through 
a decentralized bottom-up process that is free from government 
control, and Congress too has embraced this vision. In 2013, 
the House voted unanimously in support of a bill making it 
official U.S. policy to ``preserve and advance the successful 
multi-stakeholder model that governs the Internet.'' I 
personally believe that the transition of the IANA functions to 
the global multi-stakeholder community helps achieve that goal.
    Since NTIA announced last March its intention to relinquish 
control of the IANA contract, they have made significant 
progress to plan for this transition. They have also made 
impressive strides to enhance accountability for ICANN. NTIA 
has clearly and consistently articulated principles for the 
transition, in keeping with the U.S. Government's support for 
the multi-stakeholder model, and an open global Internet. I 
believe Congress has a bipartisan interest in seeing the IANA 
transition executed consistent with these principles.
    We all have a shared interest in transparency and 
accountability, and therefore thank my Republican colleagues, 
especially Chairman Walden and Mr. Shimkus, for working with us 
to address concerns with the DOTCOM Act, and I look forward to 
continuing our shared responsibility, conduct rigorous 
oversight of NTIA, and to ensure the agency lives up to its 
commitments for the transition. So, again, thank you to the 
witnesses today for sharing their perspectives that they are 
going to on the proposals that have been put forward, and the 
work that remains to be done. And thank you to both the 
Chairman and our Ranking Member, Ms. Eshoo, for putting this 
together, and the work that we are going to do together on 
this.
    I think Mr. Doyle and Ms. Matsui--you have already spoken, 
right? Does anyone else want any time? He says he doesn't, so, 
all right, I yield back. Thank you.
    Mr. Walden. Gentleman yields back the balance of his time. 
Thank you for your kind comments. We look forward to continuing 
our work together.
    Now we will go to our witnesses, and we will start with 
Steve DelBianco, Executive Director of NetChoice. We are 
delighted to have you with us today. Turn on that mic, pull it 
up close, and we look forward to your testimony, sir. Go ahead.

 STATEMENTS OF STEVE DELBIANCO, EXECUTIVE DIRECTOR, NETCHOICE; 
   DANIELLE KEHL, SENIOR POLICY ANALYST, NEW AMERICA'S OPEN 
  TECHNOLOGY INSTITUTE; AUDREY PLONK, DIRECTOR, GLOBAL CYBER 
  SECURITY AND INTERNET GOVERNANCE POLICY, INTEL CORPORATION; 
 MATTHEW SHEARS, REPRESENTATIVE AND DIRECTOR, GLOBAL INTERNET 
   POLICY AND HUMAN RIGHTS PROJECT CENTER FOR DEMOCRACY AND 
   TECHNOLOGY; AND BRETT SCHAEFER, SENIOR RESEARCH FELLOW IN 
   INTERNATIONAL REGULATORY AFFAIRS, THE HERITAGE FOUNDATION

                  STATEMENT OF STEVE DELBIANCO

    Mr. DelBianco. Chairman Walden, Ranking Member Eshoo, 
members of the Committee, thank you very much for having yet 
another important hearing on this transition. I am deeply 
involved at ICANN, 30 meetings and five times elected as the 
policy chair for the businesses constituency, and partly on the 
inspiration of your hearing last year, I got deeply involved in 
the transition planning. I represent the commercial 
stakeholders globally on the transition planning team.
    This was a year ago in April when you held the first 
hearing on NTIA's plan to transition oversight, and I think 
that what that focused on was the fact that, over 17 years, our 
government has protected ICANN's multi-stakeholder model from 
government encroachment, and really helped ICANN to mature. The 
analogy I suggested to you last year is that the U.S. built 
this car called IANA in the 1990s, we handed the car keys to 
ICANN in 1998, when we created ICANN, but we kept the ownership 
papers, we kept the title close. We monitored their driving and 
their care of the vehicle for those last 17 years. But, look, 
it is just not sustainable for the U.S. alone to hold that 
title forever, especially in a post-Snowden political climate, 
which really has nothing to do with the DNS, but politically, 
it is connected.
    So the NTIA asked the community for proposals to replace 
the stewardship role for IANA, and the global multi-stakeholder 
community responded to the challenge. We have had hundreds of 
meetings in the last several months, tens of thousands of 
person hours have gone in, often overnight, since we cycle 
through different time zones for our friends in Asia, and all 
around the world, and I can tell you I have learned to keep my 
mic on mute after 2:00 in the morning.
    Our community proposals are an excellent start. I 
summarized them in my testimony. Let me give you some 
highlights. We are giving the--for the first time we are giving 
the community new powers to challenge the Board's decisions and 
actions via the independent review panel that can issue binding 
decisions. We are allowing the community to veto bylaws changes 
proposed by the Board of Directors to veto strategic plans and 
budgets proposed by ICANN's Board, the power to remove and 
individual director, and better still, to spill the entire 
Board if they are not listening to the community.
    Now, we assessed whether these new powers give the 
community the accountability we need in the face of stress 
tests, and, Chairman Walden, you indicated a certain 
appreciation for that in the first hearing. Good news, they 
answered quite well. We did 26 stress tests, and the new 
mechanisms I have just described allow the community to have 
the powers we needed to challenge the Board decision and hold 
them accountable. But there were some stress tests that needed 
even further changes.
    Last June this Committee raised some very stressful 
questions of our own, drawing on the Dot Com Act to put 
together a set of requests for GAO, Government Accountability 
Offices, to analyze the risks and implications for national 
security in U.S. agencies. Both our stress tests that I talked 
to you about, and your third GAO question asked, what happens 
if ICANN quits the affirmation of commitments? That is a great 
question, because they can quit with 120 days' notice, 
particularly if they don't have to stay in it to keep the IANA 
contract. So we took ICANN's commitments in the affirmation, 
and the periodic reviews of the community, and have baked them 
into ICANN's bylaws as part of the proposal we released last 
week. And earlier I said that if ICANN tried to take those 
commitments out of the bylaws, the community can block that 
change.
    Another is we channeled your second GAO question, another 
one that came from the Dot Com Act. Said, what if the 
Government Advisory Committee changed to majority voting for 
its advice that they give to ICANN? This would truly expand 
government's power. We said, in the working group, that 
changing ICANN bylaws was essential so that we only are 
obligated to seek a mutually acceptable solution to this 
government advice if the government advice came over with 
consensus. So let them change their voting method, but only 
consensus carries that obligation.
    Turning back to the proposals that I had earlier, we need 
details that we haven't provided yet. We were still in draft 
one, and the entire global stakeholder community has to review 
what we have come up with, so it will not happen by September 
2015 IANA deadline. The timeline I have got here--and in my 
testimony shows that your Committee's good work on requesting 
GAO to start its analysis last June is really going to pay off.
    They have been at it for several months. I have had two 
extensive, exhausting meetings with GAO, they are asking great 
questions, and it would be immensely valuable to see the GAO 
analysis during the comment period we are having right now, and 
a second one this summer, that would be a more valuable form of 
the Dot Com Act than having GAO only start their analysis when 
we are finished, and after the community has already developed 
their proposals. So, even with the extension, we really worry 
that ICANN's Board and management will resist the reforms that 
we are talking about, because they are tough medicine. Mr. 
Schaefer will address that in his testimony later on.
    The role of Congress in this transition could be critical. 
We think you ought to insist that NTIA require ICANN to accept 
and implement the final form of our proposals for new 
accountability as a condition of getting the IANA transition, 
and that is why my chart has showed them in the upper right 
hand corner, to accept and implement, and it will be up to NTIA 
to make sure that that is the case. We would like you to 
support, and encourage, and insist upon NTIA to do that.
    And I will conclude by saying this is, as you have 
indicated, our last chance to use the leverage that we are 
about to relinquish, because this driver is about to turn 18. 
It is time to sign over the title to this car, but not until we 
are sure that ICANN is answerable to the community we designed 
it to serve.
    [The prepared statement of Mr. DelBianco follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you very much. Turn over the titlement. 
Who is paying for the insurance? That is what I want to know.
    Mr. DelBianco. That is the expensive part, Mr. Chairman.
    Mr. Walden. That is the expense. Anybody with a teenage 
knew that.
    We are going to go now to Danielle Kehl, who is the Senior 
Policy Analyst at the New America's Open Technology Institute. 
Danielle, we welcome you, and thank you for participating in 
our hearing today.

                   STATEMENT OF DANIELLE KEHL

    Ms. Kehl. Thank you, Chairman Walden, Ranking Member Eshoo, 
and members of the Subcommittee. As a researcher and active 
participant in global Internet governance issues, I appreciate 
the Committee's desire to preserve a free and open Internet, 
and believe that a swift and orderly IANA transition is key to 
achieving that goal.
    While I share the Committee's concern that if the IANA 
transition goes badly it could harm Internet freedom, the best 
way to prevent that outcome, and to ensure the continued 
stability of the Internet's domain name system, is to support 
the ongoing process. The U.S. Government's oversight role has 
long been a political target, an exaggerated symbol that 
overshadows our good intentions in the global Internet 
governance space, and it is time to step aside, which will 
ultimately help us in our ongoing efforts to prevent government 
overreach on other Internet governance issues.
    The first point that I would like to emphasize today is 
that this is the right time for the IANA transition to happen, 
and without unnecessary delay. The transition is long overdue, 
both historically and politically. It is the logical conclusion 
of the sequence that began in 1998, when the U.S. Government 
first announced that it would privatize the DNS, and it is a 
formal recognition that the Internet is now a truly global 
network.
    There is broad consensus that no single country should have 
exclusive jurisdiction over the Internet's core infrastructure, 
and that the system needs to evolve in ways that benefit users 
all around the world. That is why a wide range of Internet 
stakeholders support the decision to complete the transition to 
a community-based non-governmental institution. As former FCC 
Commissioner Robert McDowell put it, it is time to get the 
government out of the Internet governance business. And we 
can't forget that NTIA made it clear from the very beginning 
that this oversight role would be temporary. The justifications 
for it in 2015 are considerably weaker than they were in 1998.
    There is also significant evidence that if NTIA had not 
voluntarily decided to begin the transition, other Internet 
stakeholders would have tried to force its hand. For all these 
reasons, the decision last year to initiate the transition and 
establish a community-drive multi-stakeholder process is the 
only way to ensure that the transition happens in such a way 
that it addresses both the needs of the global community and 
the interests of the U.S. Government.
    Second, the process of developing the transition and 
accountability proposals, as I think my colleagues on the panel 
will also say, is proceeding reasonably well. Last year, NTIA 
laid out five clear principles that any transition plan must 
meet, and the development of this plan is receiving significant 
input from a wide range of stakeholders. Yes, the process is 
complex, but there is still reason to believe that when the 
dust settles, there will be a real community consensus about 
what the transition should look like, and that it will include 
appropriate safeguards to ensure the system's ongoing 
stability. And NTIA is firmly positioned to reject any 
proposals that fail to meet its criteria.
    At the heart of all of this is the question of ICANN 
accountability. Specifically, after it is freed from U.S. 
Government oversight, what will prevent ICANN from taking on a 
global governance role far outside of its core commitments? 
There are important issues that need to resolve, including how 
to make sure that the community has the means to correct any 
misuses of ICANN's power. But these questions are best 
addressed through the existing accountability process, whose 
working group recently released its initial draft proposal, 142 
pages, for review.
    So, finally, while I share the Committee's concern that the 
stakes are high, legislation like the Dot Com Act is not 
necessary, and, although surely unintentional, could actually 
make it substantially more difficult for the U.S. Government to 
make sure that the transition happens smoothly. Imposing a 
delay would appear to be an act of bad faith, and it will be 
poorly received internationally. It will look like an attempt 
to substitute the U.S. Government's judgment for the global 
community's. Preventing NTIA from completing the transition is 
also inconsistent with the previous statements that were 
mentioned in opening remarks about unanimous support for the 
multi-stakeholder Internet governance model. And, finally, it 
would play into the hands of foreign governments who seek to 
undermine the system, and strengthen their opposition to the 
U.S. on a broad range of free expression issues.
    To conclude, I think we are all in agreement that the IANA 
transition is a significant opportunity for the United States 
and for Internet users worldwide, and we appreciate the 
Committee's engagement on this incredibly important issue. But 
the best way to ensure that it goes well, and to achieve our 
broader shared goal of protecting a free and open Internet is 
to let the community complete its work before deciding what the 
next step should be. Thank you, and I look forward to your 
questions.
    [The prepared statement of Ms. Kehl follows:]
    [GRAPHICS NOT AVAILBLE IN TIFF FORMAT] 
    
    [The attachment to Ms. Kehl's statement has been retained 
in committee files and can be found at: http://docs.house.gov/
meetings/if/if16/20150513/103448/hhrg-114-if16-wstate-kehld-
20150513.pdf.]
    Mr. Walden. Thank you, Ms. Kehl. Appreciated your comments 
and your insights.
    Go now to Audrey Plonk, who is the Director of Global Cyber 
Security and Internet Governance Policy for the Intel 
Corporation. Ms. Plonk, we are delighted to have you before the 
Committee. Please go ahead.

                   STATEMENT OF AUDREY PLONK

    Ms. Plonk. Apologies. Good afternoon, Chairman Walden, 
Ranking Member Eshoo, and members of the Subcommittee. Thank 
you for the opportunity to testify today. I am Audrey Plonk, 
Director of Global Cyber Security and Internet Governance 
Policy at Intel. I am here to express Intel's unequivocal 
support for the successful and timely transition of the 
stewardship of the IANA functions contract in support of the 
multi-stakeholder community. Intel has actively followed and 
participated in the transition process.
    Technology advances built on U.S. innovation have driven 
unprecedented economic growth in the U.S. and abroad. Intel has 
been at the center of this innovation for more than 40 years. 
In 2014 Intel did $55.9 billion of business, and employed 
170,000 people worldwide, 60,000 in the United States. Though 
Intel is incorporated here, our presence, impact, and revenues 
span the globe.
    I cannot stress enough the importance of trust to our 
current and future success. We have observed a trend toward 
diminished trust in the U.S. Government and U.S. companies, 
both at home and abroad. Any real or perceived failure in the 
transition in the form of an externally imposed or mandated 
delay will only heighten mistrust in the U.S. Government, and 
embolden governments threatened by a free and open Internet, to 
the detriment of the many Internet technology companies 
headquartered in this country.
    Intel is not a provider of domain name services, nor a 
registry, or a registrar. We are not a contracted party to 
ICANN. Quite simply, we design and manufacture the computing 
power of the Internet. Though the IANA functions are extremely 
important, they are fundamentally administrative, and involve 
updating and maintaining three related, but separate, 
registries, names, numbers, and protocols.
    The IANA neither makes policy, nor exercises judgment. It 
simply follows a mechanical process to maintain and update 
these registries according to explicitly defined rules. Without 
these functions, connected devices will not fully realize their 
potential to improve the lives of everyone on Earth. Today 
those rules are developed through multi-stakeholder processes 
through which all interested and affected parties participate. 
Much of the global debate on Internet governance centers on 
this process, and whether it is sufficient to govern the 
Internet going forward.
    The most widely supported alternative to multi-stakeholder 
governance is multi-lateral governance, in which an 
intergovernmental body, such as the United Nations, makes 
governance decisions. In this scenario, the overall influence 
of the United States government is diminished to a single vote, 
and the ability for direct participation from industry and 
civil society is largely eliminated. Again, any real or 
perceived failure in the transition emboldens hostile 
governments to push this process toward the United Nations, or 
another intergovernmental body.
    Recognizing this, the U.S. Congress has consistently and 
publicly supported multi-stakeholder Internet governance, as 
was previously mentioned in opening statements. In 2012 
Congress unanimously passed a resolution to preserve, and 
advance, a successful multi-stakeholder model that governs the 
Internet today. And just last year, thanks to the foresight and 
leadership of this Committee, this policy was reaffirmed in 
H.R. 1580, which passed the House unanimously. It is Intel's 
view that the transition of the IANA functions is, in fact, 
advancing multi-stakeholder governance in line with this stated 
policy.
    The transition is on an excellent path. As of today, there 
are four proposals, two complete from numbers and protocols, 
and two in draft format from names and accountability, covering 
all aspects of the transition. Most importantly, especially for 
this committee, and for congressional oversight, these 
proposals have been, and will continue to be, developed in a 
completely open and transparent fashion. Anyone with an 
interest can review and comment, and access the entire record 
of past discussion to understand how decisions were reached.
    The Internet doubles in size every 10 \1/2\ months, and has 
done so for 30 years. Technology is changing all the time. 
Keeping up with that rate of exponential growth requires all 
the parts of the Internet to be continuously improved. Not only 
the technical functions, but the political and policy functions 
as well. We can't leave the politics and policies in the 20th 
century while the technology advances into the 21st.
    The transition is entering its final stages. We ask that 
you support allowing the names community and the accountability 
working group the time they need to arrive at a responsible and 
well considered outcome, recognizing that the uncomplicated 
proposals from numbers and protocols communities are complete. 
This approach reinforces the U.S. Government's commitment to 
multi-stakeholder outcomes during this critical time for 
Internet evolution and Internet governance. Our collective 
success depends upon a global, open, interoperable, 
trustworthy, and stable Internet as a platform for the 
connected devices that Intel builds.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Plonk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you. We appreciate your testimony.
    We will go now to Mr. Matthew Shears, the Representative 
and Director of Global Internet Policy and Human Rights 
Project, Center for Democracy and Technology. Mr. Shears, 
delighted to have you here with us today. We look forward to 
your comments.

                  STATEMENT OF MATTHEW SHEARS

    Mr. Shears. Thank you. Chairman Walden, Ranking Member 
Eshoo, and members of the Subcommittee, thank you for your 
invitation to testify today. CDT has been deeply involved in 
the IANA functions transition process since the announcement by 
NTIA over a year ago. We recognized, as did NTIA, and numerous 
other stakeholders, that this transition of stewardship over 
the domain name system was not only important in its own right, 
but would have significant consequences for international 
Internet governance and the future of open participatory 
stakeholder driven governance processes.
    I have had the pleasure of participating in the work of 
both the working group on the IANA transition of the domain 
names community, as well as the working group on enhancing 
ICANN's accountability. The IANA transition and ICANN 
accountability working groups are dealing with very complex 
challenges. Replacing the oversight role of NTIA is not a 
simple matter, nor is changing the governance structure of an 
organization, let alone one as unique as ICANN. Yet the global 
multi-stakeholder community, comprising businesses, 
governments, the technical community, civil society, academia, 
individual users, has risen to the challenge.
    Through my work in both working groups, it has become clear 
to me that these disparate stakeholders are united by shared 
goals, the continued stability, security, and resiliency of the 
DNS, and an IANA function that continues to operate in a 
neutral, fully accountable and transparent manner. It is also 
clear that this process could not have proceeded without the 
input of this broad cross-section of the global multi-
stakeholder community, and the range of technical, legal, and 
policy expertise that it brings. After many months of hard 
work, both the IANA transition and ICANN accountability 
proposals are now out for public comment.
    The two working groups have been working in parallel, but 
the issues they address are deeply intertwined. The working 
group on enhancing ICANN's accountability is focused on finding 
ways to empower the ICANN community, its supporting 
organizations and advisory committees through increased 
oversight of ICANN processes and governance. These 
accountability reforms are also critical to the success of the 
IANA transition proposal.
    The current proposal for the IANA transition places the 
operation of IANA functions within a subsidiary of ICANN, 
thereby avoiding needing to create an external entity. In this 
proposal, ICANN will serve as the contracting entity for the 
IANA functions, and the subsidiary as the operator. It is clear 
that, for the proposal to work, ICANN, as the new IANA 
functions oversight body, must be held accountable so that it 
provides neutral and transparent oversight of the IANA 
functions. However, this will only be credibly possible with an 
ICANN community that is more empowered than it is today. It is, 
therefore, absolutely essential that the proposed 
accountability enhancements are embraced and committed to by 
ICANN and its Board, both at the time of the transition and 
beyond. These community powers will also guard against capture 
and mission creep. The new accountability enhancements will 
make more explicit the narrow mission and purpose of the 
organization, and will make those delineations harder to 
change.
    New measures, including the ability to question budgets and 
strategic plans, will be key to keeping in check what ICANN 
does and how it fulfills its role in the Internet ecosystem. 
The community will be able to veto changes to bylaws, ensuring 
that neither ICANN's relationship to the IANA functions, nor 
these important accountability reforms, can be changed at the 
whim of the Board, now, or in the future. The community will be 
able to recall individual Board members, as well as the entire 
Board, making the Board members more directly accountable to 
the stakeholders that selected them. These powers will ensure 
that the leadership of ICANN remains responsive to the global 
community, and does not take its role in the DNS for granted.
    The IANA transition is a culmination of a long planned move 
to multi-stakeholder management to the DNS. The transition also 
supports the U.S. Government's commitment to multi-
stakeholderism and international Internet policy, as my 
colleague, Ms. Kehl, described. The NTIA's role in overseeing 
the IANA functions has been a major point of contention over 
the years. It will be increasingly hard to credibly refute the 
calls for a controlling role for government in Internet 
governance if we do not complete a successful transition.
    To conclude, CDT expects, and indeed is working hard to 
ensure, that the global multi-stakeholder community will 
develop a transition proposal that satisfies NTIA's principles 
and stakeholder expectations, safeguards against capture or 
undue influence by stakeholders, and continues to maintain the 
stability, security, and resiliency of the DNS. The transition 
proposal must be accompanied by governance reforms that ensure 
the accountability of ICANN to the global community, and that 
keep it closely tethered to its mission and mandate. Thank you.
    [The prepared statement of Mr. Shears follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you, Mr. Shears. We appreciate your 
coming over here to share those comments with us.
    We now go to Brett Schaefer, who is the Senior Research 
Fellow in International Regulatory Affairs for The Heritage 
Foundation. Mr. Schaefer, delighted to have you before the 
Subcommittee. Please go ahead with your testimony.

                  STATEMENT OF BRETT SCHAEFER

    Mr. Schaefer. Thank you, Mr. Chairman, other distinguished 
members of the Committee. Thank you very much for inviting me 
to testify here today. The history of the Internet is one of 
astounding innovation, growth, and success. A great 
contributing factor to the growth and success of the Internet 
is that formal governance and regulation has been light, and 
relatively non-intrusive. Since 1998, the U.S. Government has 
contracted with the Internet Corporation for Assigned Names and 
Numbers, ICANN, to manage most of the technical aspects of 
Internet governance, including the Internet Assigned Numbers 
Authority, or the IANA function. This highly successful 
arrangement is about to change.
    As mentioned, in March 2014 the U.S. announced that it 
intended to end its historical relationship with ICANN. 
Although the timing of the announcement took many by surprise, 
the intent is consistent with longstanding U.S. policy to make 
management of the IANA fully private. This is a very important 
decision. When the U.S. Government oversight rule ends, ICANN 
will come under considerable pressure from a number of 
interested parties to adopt policies that they favor. It is 
critical that ICANN is sufficient insulted from these pressures 
to make independent decisions, while simultaneously being 
responsive and accountable to the broader multi-stakeholder 
community. This is a very tough line to walk. Failure could 
lead to inefficiencies, instability, partiality, and other 
problems that could result in substantial costs, and inhibit a 
vital medium for free speech and political discourse. There 
will be only one opportunity to do this, and it must be done 
right.
    I am happy to say that, although much work remains to be 
done, I have been immensely pleased and impressed with the 
commitment and progress made to date. To coordinate multi-
stakeholder recommendations, ICANN convened community led 
working groups on stewardship and accountability to draft 
proposals for the transition. The working groups focused on 
technical aspects of the IANA have in particular made 
significant progress. The two teams focused on numbers and 
protocols submitted proposals in January that appear to have 
consensus support in the multi-stakeholder community. The third 
group, focused on names, has recently submitted a draft 
proposal for public comment. This proposal is more complex, and 
creates a new government structure within ICANN for the IANA.
    All three proposals would allow for separability, the 
ability to change to a different IANA functions operator if 
ICANN falls short in some way. This is a critical issue. The 
possibility that ICANN might lose the IANA contract with the 
U.S. Government, however unlikely, has provided an independent 
check on ICANN's monopoly position. A key aspect of the 
stewardship discussion is focused on how to mirror that check 
after the U.S. role ends. According to some well-informed 
sources, ICANN is pushing back on separability. Congress needs 
to pay attention to this issue and clarify its position.
    The accountability working group has also made great 
progress, and has submitted a draft proposal for public 
comment. In my opinion, the paramount concerns should be to 
ensure that, one, ICANN is sufficiently insulated against 
capture by governments or other narrow interests, two, ICANN's 
purpose is narrowly defined to prevent mission creep, three, an 
independent review process is in place to adjudicate and issue 
binding judgments over disputes between ICANN and the 
community, and four, ICANN is responsive and accountable to the 
multi-stakeholder community by establishing a means to 
recalling the Board, individual Board members, approving the 
budget, and approving a strategic plan. As currently drafted, 
the accountability proposal addresses all of these concerns. 
However, sound ideas and intent can be thwarted by poor 
implementation, and we are far from the end of the process.
    The final issue I wanted to highlight is the tight 
timeframe. Under the terms of the current contract with ICANN, 
the U.S. Government will have to decide in just a few short 
months whether to allow the transition to proceed when the 
current contract expires on September 30, 2015, or whether to 
extend the current contract to allow the transition proposals 
to be more fully developed and/or implemented. As a practical 
matter, NTIA must have the details of the various proposed 
changes, and evidence of their implementation, well in advance 
of this date to make an informed decision on whether its 
conditions for the transition have been met satisfactorily.
    Looking at the hurdles that must be cleared, there is very 
little chance that this deadline will be met. NTIA 
administrator Lawrence Strickling and ICANN CEO Fadi Chehade 
have both insisted, and repeatedly stated, that September 30 is 
not a goal or a--is not a--is a goal, not a deadline. In fact, 
there shouldn't be any deadline. Congress should hold them to 
the fact that this transition must be done correctly, not in 
any particular time, or in any particular deadline format. Once 
NTIA's contract with ICANN expires, so does its ability to 
ensure changes considered necessary by the multi-stakeholder 
community are approved and implemented. Only after an 
acceptable transition proposal is offered, and all the 
necessary forms to ICANN are adopted and in effect, should the 
U.S. end its current arrangement.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Schaefer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Thank you, Mr. Schaefer, and I just want to say 
how much I agree with what you just said, and that is what my 
role certainly has been, and I think of our subcommittee here, 
with these hearings, I just want to know what it is that is 
going to govern this process once NTIA says, see you later, and 
all. And so I think we have an obligation, as stewards of this, 
to this point, to make sure we know what the future looks like 
before we just say, you go ahead and do it. So that has been 
the purpose behind all of our efforts, is just to find out what 
are the rules?
    And I want to commend those who have put so much time into 
this effort, because you have given us more and more 
confidence, with each step of the way, that you share our 
concerns here, and you are getting things locked into place 
where there is appropriate check and balance that otherwise 
goes away when that 60-some page contract is torn up.
    So my first question to each of you is do you believe the 
transition could and/or should occur by September of this year? 
And, Mr. Schaefer, I think you have already said no.
    Mr. Schaefer. That is correct. I don't think there is any 
way, realistically, that----
    Mr. Walden. OK.
    Mr. Schaefer. The transition can occur, and all these 
changes will be implemented.
    Mr. Walden. All right. Mr. Shears, yes or no?
    Mr. Shears. I don't think it is likely to happen by that 
time, unfortunately.
    Mr. Walden. All right. Ms. Plonk?
    Ms. Plonk. I think that decision, and the plan, lies with 
the multi-stakeholder community, and not with me as an 
individual.
    Mr. Walden. Yes, but you get to tell us just the same.
    Do you think this can happen by September, given all the 
work you have put into this, that we are ready?
    Ms. Plonk. I think it depends on the outcome of the ICANN 
Buenos Aires meeting next month. I think we will have more 
information then.
    Mr. Walden. All right, that is fair. Ms. Kehl?
    Ms. Kehl. I think it is unlikely, unfortunately, as well to 
happen by September 30, and getting it right is very important. 
But I also think the community dwill be the one that knows best 
how much time it will take to get it done right.
    Mr. Walden. Yes. Mr. DelBianco?
    Mr. DelBianco. The answer is no way, and the Administration 
has been very realistic about it, has already sent letters to 
the naming and the accountability group chairs 2 weeks ago, 
saying, how much time do you think you need? And I think that 
is appropriate. And the community is going to come back and ask 
for more time. As indicated on that chart, it is a concurrent 
process, it stretches, and there is a role for Congress 
throughout. There's a role for----
    Mr. Walden. Right.
    Mr. DelBianco [continuing]. NTIA throughout the process. 
Though there isn't this notion that moving that deadline--
moving that goal out is somehow going to empower enemies of 
freedom and commerce. They already are enemies of freedom and 
commerce, and any unique role for the U.S. I don't think that 
we need to worry about providing them an excuse if we end up 
asking for, in my estimation--I have April of 2016 is about the 
earliest we could get enough implementation done, but there are 
others who believe it could take as long as into the summer of 
2016.
    Mr. Walden. So then wouldn't it make sense for NTIA to 
extend the contract for another year? Because, again, as I said 
in my testimony, they can cancel it if you get agreement, you 
can do that. But wouldn't it make sense to extend it?
    Mr. DelBianco. I believe it does, Mr. Chairman.
    Mr. Walden. Does anybody disagree with that? Ms. Kehl? Ms. 
Plonk? Is that a yes or a no head shake?
    Ms. Plonk. I think I would just continue to say it is not--
I--we haven't gotten a response from NTIA's letters to the 
community yet----
    Mr. Walden. All right.
    Ms. Plonk [continuing]. So it is not clear.
    Mr. Walden. Mr. Shears?
    Mr. Shears. I think it is important that we understand and 
see what comes back from the community, in terms of the 
consultations that are out at the moment----
    Mr. Walden. Yes.
    Mr. Shears [continuing]. On the two proposals.
    Mr. Walden. All right.
    Mr. Shears. That is a key factor.
    Mr. Walden. Mr. Schaefer?
    Mr. Schaefer. I think it is very important for the NTIA to 
maintain its current role, at least as long as this process is 
still in play. Once the process is agreed to, and most 
importantly all this--all the necessary changes are actually 
implemented and verified, then is the time to----
    Mr. Walden. Right.
    Mr. Schaefer [continuing]. End the current relationship.
    Mr. Walden. OK. So, Ms. Plonk, while we acknowledge there 
are potential benefits to this transition, we also have very 
serious concerns about the very real risks. I think everybody 
has spoken to that. Beyond simply trusting the international 
community to do the right thing, what do you see is the best 
way for Congress to get answers to the questions, and are there 
ways to address the potential pitfalls?
    Ms. Plonk. Thank you for the question. I think it is a 
really important one, and I absolutely agree with you that 
there are risks, and potential pitfalls. Two main things. I 
think first we want to commend this Subcommittee for actively 
participating in the process, for attending meetings, for 
showing up in Busan at the Plenipotentiary Conference, and for 
the amount of time the Committee has invested to understanding 
that that continued investment in the process will be a huge 
impact for the outcome, so I think that is one. The second is 
to continue to conduct oversight through having hearings, like 
this one, as we move through the process. And then the final 
point is to ensure that what NTIA accepts at the end is multi-
stakeholder, is what----
    Mr. Walden. Right.
    Ms. Plonk [continuing]. Has come out of the multi-
stakeholder process so that Congress is supporting its 
longstanding position on multi-stakeholder governance.
    Mr. Walden. Mr. DelBianco?
    Mr. DelBianco. Thank you, Mr. Chairman. You asked the 
question what is the best way for Congress----
    Mr. Walden. Right.
    Mr. DelBianco [continuing]. To get answers? I will give you 
two suggestions. The first is to get questions in now, as soon 
as possible. The GAO analysis generates questions and risks----
    Mr. Walden. Right.
    Mr. DelBianco [continuing]. Unanticipated risks and 
implications. And those risks, if we wait until the end of this 
process, Mr. Chairman, it will completely mess this process up. 
We need to hear about your concerns and risks this summer, over 
the next several months, and give us the opportunity to take 
care of your risks and concerns.
    And the second change is to find a way to give NTIA enough 
rope to spend time and resources answering your questions----
    Mr. Walden. Yes.
    Mr. DelBianco [continuing]. For them to be the steward of 
getting you the answers that you need from the community, as 
well as for NTIA to assess whether the criteria are being met. 
It doesn't help us if NTIA waits until the very end to say 
thumbs up, thumbs down. There needs to be an engagement and an 
involvement.
    Mr. Walden. See, that is what we have been after, and that 
there is after you all do your work, and the multi-stakeholder 
process does its work, give us a chance to at least look at it 
and understand it before handing the keys, the title, and the 
insurance payments off to the 18-year-old driver.
    With that, I thank you again for your testimony and your 
counsel along the way. Now recognize my colleague from 
California, Ms. Eshoo.
    Ms. Eshoo. Am I the 18-year-old that you are----
    Mr. Walden. No, but Mr. DelBianco----
    Ms. Eshoo. I thought you were flattering me. OK.
    Mr. Walden. You are--I was thinking more like----
    Ms. Eshoo. All right.
    Mr. Walden [continuing]. You know, 17.
    Ms. Eshoo. Well, at least it is not a sports analogy, so--
thank you. You are all enlightening, you really are, very, very 
helpful. Now, we have got a couple of things on the table here. 
You have described all of the work, and it is extensive work. 
And, as the Chairman said, and I join him in thanking you for 
the time that you have put in on this. I mean, this is an 
enormous amount of work that you have done, and it is 
productive, and it is bearing fruit, but we are not quite 
ready. And none of you think that the work is going to be 
accomplished by, what, September of this year, and--all right.
    Now, we have got a couple of things on the--I think three 
things here. We have the Dot Com--in it. More work has to be 
done, but you are very pleased with what is on the table so 
far, and that Congress should continue to have--to do its 
oversight in this. Now, if we get through this entire process, 
and, say, the Dot Com Act is law, then you have to go back to 
the GAO and have them study what is completed, and, what, wait 
another year? Do you all support that? Does this make sense to 
you, or am I--do I have a--the wrong take on the legislation? I 
mean, it is my understanding that it will take--it will add 
another year to--to what, John? John? Let me just ask you--Mr. 
Shimkus? John? My pal----
    Mr. Shimkus. Well, I----
    Ms. Eshoo. Sit up straight.
    Mr. Shimkus. I was listening. I was----
    Ms. Eshoo. I will yield to you for a second. When does your 
year begin? After they finish their process?
    Mr. Shimkus. Right, but, remember, GAO is already doing a 
report now too.
    Ms. Eshoo. I know. So that is the----
    Mr. Shimkus. So I think the timeline would be----
    Ms. Eshoo. Right.
    Mr. Shimkus. You know----
    Ms. Eshoo. Yes.
    Mr. Shimkus [continuing]. Almost--parallel.
    Ms. Eshoo. But the--reclaiming my time, I mean, I think you 
just made my point. That is why I think it negates it, because 
if the GAO is doing something--anyway, tell me what you all 
think of this. Do you think that this is a good plan, this is 
the way to go forward? I mean, just quickly, yes or no. Let us 
start with Mr. DelBianco.
    Mr. DelBianco. The right plan is----
    Ms. Eshoo. You are not going to be hurting anyone's 
feelings.
    Mr. DelBianco. Understood.
    Ms. Eshoo. I just want----
    Mr. DelBianco. The right plan----
    Ms. Eshoo [continuing]. A professional opinion.
    Mr. DelBianco. Got it. Thank you. The right plan is to take 
those risks and implications that you have asked for from GAO, 
and surface those into the process.
    Ms. Eshoo. Yes.
    Mr. DelBianco. If, in fact, those risks are not addressed, 
it should not take anywhere close to a year to say, we raised 
these risks and concerns for national security----
    Ms. Eshoo. Yes.
    Mr. DelBianco [continuing]. And for other agencies, and 
they haven't been addressed. That could happen very quickly. 
But it is so important to happen while we are convened. If you 
wait for us to finish----
    Ms. Eshoo. Well, that is my----
    Mr. DelBianco [continuing]. And generate that document----
    Ms. Eshoo [continuing]. Very point----
    Mr. DelBianco [continuing]. In won't work.
    Ms. Eshoo [continuing]. To get to the end, and then start 
all over again I don't think is a good way to go. Do you have 
something, Ms. Kehl?
    Ms. Kehl. I would agree with that.
    Ms. Eshoo. Yes.
    Ms. Kehl. I think that the important thing here is 
engagement now in the process----
    Ms. Eshoo. Yes.
    Ms. Kehl [continuing]. As it is ongoing. And that is one of 
the great things about the process, is it is a multi-
stakeholder----
    Ms. Eshoo. It is.
    Ms. Kehl [continuing]. Transparent and open----
    Ms. Eshoo. Yes.
    Ms. Kehl [continuing]. Process.
    Ms. Eshoo. Yes.
    Ms. Kehl. So there is the opportunity now to look at and 
review what is happening. We know a lot of the risks. The 
stress test that exists----
    Ms. Eshoo. Go quickly. My time is running out.
    Ms. Kehl [continuing]. Is really important.
    Ms. Eshoo. So you are agreeing?
    Ms. Kehl. I would----
    Ms. Eshoo. That is great.
    Ms. Kehl. Yes.
    Ms. Eshoo. Ms. Plonk?
    Ms. Plonk. I also agree. I want to just also say that 
everything that is happening right now is completely 
transparent and open, so the final final that transits from the 
ICG to ICANN to----
    Ms. Eshoo. Yes.
    Ms. Plonk [continuing]. NTIA----
    Ms. Eshoo. Yes.
    Ms. Plonk [continuing]. Will not be a surprise to anyone 
who has been participating or----
    Ms. Eshoo. Yes.
    Ms. Plonk [continuing]. Anyone who hasn't. They can see 
everything that is happening.
    Ms. Eshoo. I want to thank Intel for everything you do in 
our region, and in my district. You are wonderful. Mr. Shears?
    Mr. Shears. Yes. I also agree, but I would like to 
emphasize that now is the time for us----
    Ms. Eshoo. Yes.
    Mr. Shears [continuing]. As Steve said, for those----
    Ms. Eshoo. Yes.
    Mr. Shears [continuing]. Results of that report to be 
revealed.
    Ms. Eshoo. And Mr. Schaefer? Yes?
    Mr. Schaefer. I don't think that there are two times. I 
think that Congress does have a very strong interest in this 
issue, and in the process. I think it should voice its concerns 
and its priorities during this process.
    Ms. Eshoo. Yes.
    Mr. Schaefer. But I also think that it should, at the end 
of this entire process, take a moment, evaluate what is the 
final product, and then make a decision as to what is going on, 
and whether it is meeting its own----
    Ms. Eshoo. So start all over again? That is what you are 
saying?
    Mr. Schaefer. I don't think it requires a year, but I think 
it does----
    Ms. Eshoo. Well----
    Mr. Schaefer [continuing]. Need to be assessed at the end 
of the----
    Ms. Eshoo. I think if we do our job, we don't need that 
time. That is the point. If we are thorough, both on our side 
of the dais, and you on yours--let me just raise something. We 
have another issue here, and that is in the Commerce, Justice, 
Appropriations bills which was released today, ``None of the 
funds made available by this Act may be used to relinquish the 
responsibility of the NTIA with respect to Internet domain name 
system functions, including responsibility with respect to the 
authoritative root, zone file, and the Internet assigned 
numbers authority function.'' So we have appropriators getting 
into this as well.
    I think that this is the subcommittee that needs to give 
guidance to all of this. We have done a deep dive on it, and we 
will continue to, because it requires it. And I am all for this 
subcommittee to do that work. And I commit myself, and I know 
people on our side of the aisle--boy, are you a distraction 
today, Pallone, jeez whiz.
    Anyway, listen, I forgot my train of thought, but, I think 
that the work has to keep going on. It needs to be intensive, 
broad, deep, and directed. We know what the mission is. We know 
what we need to accomplish, and Congress has to be part of that 
every step of the way. And I think if we do that, that the date 
that we finish is not the point. It will be that we did an 
excellent job on something that requires that kind of work. So 
thank you, Mr. Chairman.
    Mr. Walden. Thank the gentlelady, and just for point of 
clarification, that is why we are having this hearing, and why 
our staffs have been meeting.
    Ms. Eshoo. I understand.
    Mr. Walden. I think the original Dot Com Act, with a year 
deadline and all, kind of preceded all of this, and that things 
have changed. And that is why they have been talking, and we 
have already got the GAO audit underway, well underway----
    Ms. Eshoo. Yes.
    Mr. Walden [continuing]. And so I don't know that it needs 
to be a year at all, and I thought we----
    Ms. Eshoo. Right.
    Mr. Walden [continuing]. Communicated that. So we look 
forward to working together with that. I now recognize Vice-
Chair of the Committee, is that right, Mr.--no, wait, down to 
the former Chair of the Committee, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. One of our witnesses 
talked about giving the driver the keys, and you talked about 
who is paying for the insurance. My question is, who is going 
to police the road? Who is going to be there when something 
goes wrong? The best of drivers are going to run a stop sign, 
or exceed the speed limit, and there are various kinds of 
insurance. Sometimes they pay, sometimes they don't, but if you 
don't have an enforcement mechanism, you are going to have 
chaos. And I have yet to hear this vaunted multi-stakeholder 
process come up with an enforcement mechanism. I have tried to 
think of international multi-stakeholder institutions. I can't 
think of one that I think works better, or as well, as, and I 
hate to say this, but the Federal Government. I wouldn't say 
the United Nations is a paragon of efficiency. I wouldn't say 
the International Olympic Committee. I wouldn't even say the 
World Bank.
    So somebody on this panel enlighten me, we have got a 
system that is not broke. It is the most open, transparent 
process out there. One of you has talked about the Internet 
doubling every 10 months. I have been all over the world on 
various congressional trips. The only place I have had 
trouble--my laptop because you said the Chinese government was 
going to bug it if I tried to turn it on.
    So why try to change something that, to all intents and 
purposes, is one of the best multi-stakeholder, transparent, 
international processes out there that has the benefit of 
having an enforcement mechanism behind it, which is ultimately 
the Federal Government? And I will let anybody take a crack at 
that.
    Mr. DelBianco. Mr. Barton, Steve DelBianco. I think we 
misconnected on the earlier part of the testimony, but I would 
describe the new powers that we are proposing, because 17 years 
ago, when ICANN was set up, in their bylaws they explicitly 
took away the ability for the community to actually police 
them. In other words, a corporation has to answer to its 
shareholders, who can spill their Boards, and pass resolutions. 
My members of my trade association hold me accountable, and I 
think your voters and citizens probably hold you guys pretty 
accountable too. None of that has existed for 17 years in 
ICANN.
    Instead, the broad community has to run to run to, well, 
Congress, or NTIA to try to get a little leverage put on ICANN. 
We can sue ICANN, and many often do, and contract parties can 
take ICANN to court over what they are doing. I think that when 
you look at the testimony of what we have drafted so far, we 
are giving the community dramatic new powers that are more like 
those that a shareholder does, or that a voter has. And I think 
that is how we will police the road.
    Mr. Barton. Anybody else?
    Mr. Schaefer. Sure. Thank you. I think the first part of 
your question, the best analogy I can----
    Mr. Barton. I am just using what was given me. I mean----
    Mr. Schaefer. No, the----
    Mr. Barton. I am better at sports analogies, actually.
    Mr. Schaefer. I will actually steal from a colleague who 
was on a panel earlier today, and he says the process isn't 
broken, and doesn't necessarily need to be fixed. That is true, 
it has worked very well, and it has been very successful, but 
the toothpaste is out of the tube, and this was said by Phil 
Corwin this morning.
    And what that means is that we have entered into a process 
that can't be reversed, and that if we try to reverse it, as 
mentioned by a couple other people on this panel, the very 
likely outcome is that--is not that we are going to have the 
same situation in place going forward, but that the oversight 
of ICANN and the Internet is going to be taken over by the ITU, 
or some other international organization, which would be a far, 
far less accountable, less efficient, and more susceptible 
inimical pressures than the current one.
    And so I think we are far better off having ICANN be 
accountable to a multi-stakeholder community, which is, in 
essence, everybody who uses the Internet governing ICANN 
directly. And if--until that happens, however, we need to 
maintain the current oversight structure of NTIA and the U.S. 
Federal Government to make sure that ICANN does accept, and 
abide by, and implement those measures that have been outlined 
by Mr. DelBianco----
    Mr. Barton. My time is about to--I am not opposed to this--
--
    Mr. Schaefer. Yes.
    Mr. Barton [continuing]. Multi-stakeholder process, but you 
take things for granted. We have created a system that is the 
best in the world. It really works.
    Mr. Schaefer. Yes.
    Mr. Barton. But you do need some enforcement mechanism 
somewhere with credibility that can step in, if they have to. 
And so far, with all respect, I don't see that, and that is my 
concern. But maybe it is out there, and I just don't know it.
    Mr. Schaefer. I completely agree, Congressman, and you are 
right, it does not currently exist. That is what we are in the 
struggle to try and implement.
    Mr. Walden. Mr. Plonk, did you want to respond?
    Ms. Plonk. I just wanted to add one thing. In addition to 
the various accountability measures that have been proposed, 
that I think are very good, and my colleague Steve has outlined 
in fairly good detail, in terms of an empowered community, how 
we overturn the Board, how we overturn decisions, I think all 
that gets to your question of enforcement.
    But in addition, something that has come out of this 
process that we haven't talked about yet, is the preponderance 
of evidence that supports U.S. rule of law and incorporation in 
the State of California. And the various legal analyses that 
have been done by the multi-stakeholder community puts forward 
just how favorable the U.S., as a jurisdiction, is for this 
process. And I think the----
    Mr. Barton [continuing]. Would be helpful--if you are in 
the U.S. legal system, that is a plus.
    Mr. DelBianco. Your Honor, if I could react to that?
    Mr. Walden. Yes, if you do it quickly, because we have got 
to move on to Mr. Pallone.
    Mr. DelBianco. Yes. The operational commitments required in 
8(b), that ICANN shall maintain a headquarters in California, 
that is a legal presence and a headquarters presence. That is 
in the affirmation of commitments, and, as I said earlier, 
ICANN can walk away from that. So we have made it our mission 
to move any commitments from the affirmation into the bylaws.
    It turns out that one, 8(b), is already in the bylaws. 
Article 18, Section 1 already says ICANN shall be principled 
offices California, Los Angeles, California. So it is in the 
bylaws, and yet the Board could change the bylaws. So another 
power we described is if the Board tried to change the bylaws 
and leave California, leave any legal presence, we would have--
75 percent of the community votes could block that change.
    Now, that may not be strong enough for some of the concerns 
that I think the GAO will surface on issues like national 
security, so we may have to turn it into a fundamental bylaw, 
where 75 percent of the community would have to agree with it, 
as opposed to oppose it.
    Mr. Walden. OK.
    Mr. Barton. Make that Houston, Texas and you have got me.
    Mr. Walden. Wow. All right, we have got to move on to Mr. 
Pallone now, on the Democrat side.
    Mr. Pallone. Ms. Eshoo mentioned that this morning the 
House Appropriations Committee released the Commerce, Justice, 
and Science Appropriations bill for Fiscal Year 2016, and the 
draft bill is designed to prevent NTIA from using appropriated 
funds to complete the IANA transition. She actually read that.
    So my question is, what is the impact of this language on 
the continued success of the multi-stakeholder model of 
Internet governance, and do you think this language advances 
our interests in accountability and transparency into the 
transition process? I would like to ask any of you to respond 
to that.
    Mr. DelBianco. I could take a stab at it to suggest that 
NTIA operated under a rider over the past year, and, while they 
are not relinquishing anything, they are heavily engaged at 
ICANN, because that is what you charge them to do. NTIA is 
supposed to be at ICANN. They are at all the meetings and 
engaged. And on March the 19th we were in the middle of a hot 
debate with the governments over what to do about Stress Test 
18. It was the first stress test that I articulated for you at 
last year's hearing, this idea that the government could change 
to majority voting and suddenly be able to impose much of its 
will on ICANN.
    A handful of government objected to that, but our 
government stood tall, sent a very powerful letter to say that 
if we don't make this change that we are recommending, we won't 
meet the conditions of NTIA's transfer. So instead of waiting 
to the end and voting no, engaged early. All it took was a 
little bit of a phone call and a nudge, and our Commerce 
Department stepped right up. So they are engaging. I don't 
think it is spending any extra money, Mr. Pallone, because I 
think these are people that are on salary, right? But they are 
spending money to help us decide now to shape this transition, 
which is not the same thing as relinquishing control. So I 
guess it all depends on how the rider is written.
    Mr. Pallone. Well, did you want me to read it to you again? 
It says, ``None of the funds made available by this Act may be 
used to relinquish the responsibility of the National 
Telecommunications and Information Administration with respect 
to Internet domain name system functions, including 
responsibility with respect to the authoritative root zone file 
and the Internet assigned numbers authority functions.''
    Mr. DelBianco. So it sounds as if Commerce could work as 
hard as they could to help get your questions answered and test 
the conditions, but they couldn't take the final act of letting 
go of the contract. Is that an appropriate way to interpret it?
    Mr. Pallone. I am asking you. I don't know.
    Mr. DelBianco. I am not an expert on----
    Mr. Pallone. All right.
    Mr. DelBianco. I am not an expert on this.
    Mr. Pallone. All right. Anybody else want to respond?
    Mr. Shears. If I may, I think it will be a great shame if 
things got in the way of the multi-stakeholder process and come 
before the proposal. If a proposal is ready, and there are 
further delays through other mechanism, I think that will be a 
shame, and that would really undermine the multi-stakeholder 
model and approach.
    Mr. Pallone. Ms. Plonk?
    Ms. Plonk. Thank you. Just to further my colleague's 
comments, I think we would view that as an externally imposed 
or mandated delay, which, as I said in my testimony, we also 
believe would undermine the multi-stakeholder process.
    Mr. Pallone. OK. Anyone else?
    Ms. Kehl. I would just echo that, and say that I think it 
is a lose-lose proposition in a lot of ways, because, although 
the intent may be to make sure that this transition is handled 
well, it will make it harder in some ways, I think, for NTIA. 
We want them to be very engaged in this process, and we want to 
send a message that we support it. And I think the concern 
about the message that this sends is also very important, this 
idea that it is some sort of attempt at an external delay in 
the process. So I don't think it advances our interests.
    Mr. Pallone. Mr. Schaefer?
    Mr. Schaefer. Actually, I think that is a--my 
interpretation is a sense of frustration on the part of 
Congress that its voice is not being heard, or perhaps being 
respected in the way that they want it to be. The NTIA has 
insisted that there is not a role for Congress here, that it 
has the authority to do this, and Congress has responded to 
that with this legislation.
    And I think the proper way to do this would be for NTIA to 
say that they are not going to make any decision without 
consulting with Congress, and involve it directly in the 
process, and for Congress to voice its concerns directly and 
clearly to the NTIA, also to the ICANN, and to the multi-
stakeholder process what it considers to be vital and key 
priorities to resolve its concerns.
    Mr. Pallone. Thanks. Let me just ask quickly, I know not 
all of you can respond, but I understand that ICANN will be 
meeting next month in Argentina, where many of the issues we 
are discussing today will be on the table. What progress are 
you hoping to see in Buenos Aires next month? If anybody wants 
to take a stab at that?
    Mr. Shears. We will have the results of the consultations 
on the two proposals, so there will be--have a significant 
input from the community, from the multi-stakeholder community 
beyond ICANN, and that will shape the two proposals going 
forward. So that will be two significant areas of work for us 
in Buenos Aires.
    Mr. Pallone. Anybody else? Five seconds. No? All right. 
Thanks a lot. Thank you, Mr. Chairman.
    Mr. Walden. You are welcome, of course. And I think this 
does speak to why we need to come to terms, as we are working 
together on this legislation, because of the frustration some 
members have. They will go to the--route if we don't do our 
job. I am aware of that. So that is why we are having this 
hearing, and why our staffs have been talking about--if we can 
find common ground, we might be able to move forward with 
legislation that the Administration could support, and we could 
show strong support out of this Committee.
    With that, we will go to Mr. Latta, the Vice-Chair of the 
Committee.
    Mr. Latta. Thank you, Mr. Chairman, and thanks very much 
for our witnesses, again, for being here today. I tell you, 
this is a very, very good hearing today, and I think it is 
bringing up a lot of very good information we have to have as 
we go forward as a committee, and as a House.
    But one of the first questions I would like to ask Mr. 
DelBianco, if I could ask of you, and there are three parts to 
this question, and the question is this. One proposal from 
ICANN accountability working group is a creation of fundamental 
bylaws, as a rejection mechanism for the multistakeholder 
community. Can you elaborate on how you think this is going to 
help improve accountability? And then maybe just following 
right up into this is do you think that this will work long 
term? And is there enough of a culture of accountability within 
the membership of the community to make this effective? So, 
really, starting with that question about the fundamental 
bylaws.
    Mr. DelBianco. Thank you, Mr. Latta. The bylaws that exist 
at ICANN today are all subject to change by the Board of 
Directors without any input at all from the community. They get 
to make the final decision to change bylaws. That has been 
unacceptable. That is not accountability at all.
    So the two powers that are embedded in the proposal that we 
have been discussing, the first power is that the community, 
with a 75 percent vote, can block a Board proposed bylaws 
change. And a lot of this is to make sure that we lock in the 
powers that we have, although we believe that there are certain 
bylaws that are more important than others, that are 
fundamental and critical. So for those, just flip it on its 
head. For those, if the Board wanted to change the bylaw, it is 
a fundamental bylaw, the community would have to agree by a 75 
percent vote of these members. And we have a laid out structure 
on who gets to vote, and how. And if the community doesn't get 
75 percent agreement, the bylaw does not change. So one of the 
debates is should this California principal office be a 
fundamental bylaw, or not? It would be so helpful to get 
comments from members, and from this Committee, from the 
Congress, on that particular question, because it is before us 
over the next several weeks.
    You also asked if the community has a sufficient culture of 
accountability. The community is people like us, and we all are 
used to holding institutions accountable in our daily lives. It 
is when we go to ICANN that we sort of give all that up. So I 
hope that we can rely upon that cultural accountability that we 
have, and start to fire those engines when we start to work at 
ICANN, but it will take a few years, probably, for us to learn 
how to exercise the muscle of all these new powers we have 
designed.
    Mr. Latta. Mr. Schaefer, let me ask you. Because this is 
interesting, and, as we have seen through time, and across the 
world, sometimes things don't actually work sometimes the way 
we hope they would, especially when we are talking about the 
multi-stakeholders, and the oversight. And the question I am 
going to ask is this. Could there be some intimidation by 
certain members of other members that would be a problem out 
there that you would end up on an intimidation, when we are 
talking about trying to change bylaws, or just the functioning 
of the Board itself?
    Mr. Schaefer. I am sorry, who are you addressing the 
question to?
    Mr. Latta. If you could answer that?
    Mr. Schaefer. Sure. Anything is possible, of course. Other 
members can bring pressure on other Board members. But inside 
the reforms, as outlined by Mr. DelBianco, and in the 
accountability group, individual members of the Board would be 
susceptible to recall by their constituencies in there, and 
also----
    Mr. Latta. But suppose that some of these are more 
authoritarian type governments, and that is one of the things 
that we have talked about in this Committee----
    Mr. Schaefer. Sure.
    Mr. Latta [continuing]. That they wouldn't be recalled by 
their constituency because there is no constituency.
    Mr. Schaefer. Well, the constituencies on the ICANN Board 
aren't representative of governments. They are representative 
of parts of the community, and various stakeholder groups, and 
advisory committees, so I am not exactly sure----
    Mr. Latta. The question that I have got, though, is can 
there be intimidation of those stakeholders out there? And 
there is going to be--it might not just be because of what we 
are talking about on the Internet, because of other things that 
are going on in the world, and a lot of things that this 
Committee touches that we have seen that can happen. But my 
fear is that you could have some folks out there that would be 
intimidated not by ``a government'', but by the stakeholders 
that are representing a government.
    Mr. Schaefer. That would require a significant amount of 
coordination and pressure among a great deal of people and a 
great deal of constituencies that I think would be very 
difficult to either conceal, and do so in a secretive fashion. 
The nature of the multi-stakeholder community is that it is 
very diverse, it encompasses a broad array of individuals, and 
organizations, and businesses, and so forth. And I think it 
would be very hard to do that, unless you are talking about 
criminal activity, and then that would be something that would 
be handled by law enforcement, not through the accountability 
measures established under ICANN.
    Mr. Latta. Thank you. Mr. Chairman, I see my time has 
expired, and I yield back.
    Mr. Walden. Thank the gentleman. Chair----
    Mr. Doyle [continuing]. Testimony you mentioned that for 
the proposed governance structure of IANA to work that ICANN 
must ensure it is accountable to the broader community of 
stakeholders. Have you seen ICANN take steps to empower the 
broader community in such a way as to enable this greater 
accountability, or what concerns still remain?
    Mr. Shears. One of the things that is certainly true is 
that this community, this community within ICANN, has been 
crying out for greater accountability and transparency for some 
time, and this came to a head last summer, and that was one of 
the reasons for accountability working group going forward. So 
the work that that group is doing at the moment is the work 
that we hope we will see implemented at the same time as the 
transition takes place.
    So, to date, I think it is fair to say, as others have said 
on the panel, that the accountability and transparency at ICANN 
has not been as good as it could have been, and at some times 
inadequate, and that this is our opportunity to make sure that 
those changes are put into place. And it is essential that they 
are.
    Mr. Doyle. Yes, and you mentioned one source of 
accountability is for the community to be able to award the 
IANA contract to another entity down the road. Do you see this 
as an effective check towards improving ICANN's governance and 
accountability?
    Mr. Shears. It is an absolutely essential check, yes.
    Mr. Doyle. Yes. Ms. Kehl, in your testimony you said that, 
had NTIA not voluntarily undertaken this transition, that other 
stakeholders would have moved forward. Tell us how U.S. 
leadership in this transition driven--how U.S. leadership has 
driven stakeholders to the table, and what will be the 
consequences if we have delays?
    Ms. Kehl. Of course, thank you for the question. So I think 
from the very beginning, actually from 1998, the U.S. has been 
a tremendous leader in bringing these stakeholders to the 
table, and empowering the system to work from the beginning. I 
think we saw, in October of 2013, which was what I mentioned in 
my testimony, the heads of the regional Internet registries, 
and ICANN, and the Internet Engineering Task Force put out a 
statement calling for the globalization of ICANN, and the 
transfer for the IANA function, saying it is time.
    And so I think the response the U.S. Government to say, 
yes, it is time, and we can initiate this transition was both, 
you know, it was appropriate historically, it made sense 
politically, and, as a result, we are in a strong position 
right now still to set the terms here. So we are a leader. We 
are not saying that this is going to be dragged from us kicking 
and screaming in any way. We are not saying that we are trying 
to delay it. We are saying it is time, we support this system, 
and we trust that we can figure out a way, working with the 
community, to actually make it happen. I think it is an 
incredibly powerful message for the U.S., and I think on the 
other side of that, if we don't do that, there is this concern 
that this political target, this sort of, like, falsely clouds 
our good intentions, and the Internet governance space will 
only grow larger, right?
    So this idea that this is something that comes up it is--
for the past more than a decade it comes up an Internet 
governance meetings, it came up in Korea, at the International 
Telecommunication Union Conference, this idea that this was a 
problem, and that this somehow privileged the U.S. role, and so 
it is the responsible thing to do to say we are going to end 
that, and we are going to do this in a manner that works for 
both us, and for the global Internet community.
    Mr. Doyle. Would either of you like to add anything to 
that, Ms. Plonk or Mr. Shears? OK. Mr. Chairman, I will just 
close by saying that I want to keep it in Los Angeles, 
California, but not Houston, Texas. Thank you.
    Mr. Shimkus [presiding]. Gentleman yields back his time, 
and Chair recognizes myself for 5 minutes. And it is great to 
have you, and I think we are making progress from my colleagues 
on the other side.
    I don't think we would be in this position had the original 
bill not been dropped in the last Congress. And, in respect to 
the appropriation battle, I would argue that we wouldn't even 
have that fight had we done a better job of working together 
last Congress to try to raise these issues, because, if you 
remember this whole debate, and Mr. Strickland was one of them, 
and many of you were there, Congress has no role. That is what 
your statements were, Congress has no role. Now today you are 
saying what? There is an important role for us to play, and we 
need to be involved because our citizens are going to ask 
questions. The world is a much different place now than it was 
in 2012. So where decisions were made in 2012, the world is--we 
are at a different place. I think there is less trust in the 
international world and community right now just because of 
world events.
    So we just represent people, OK, in our districts, we all 
have about 750,000, of what we are doing with NTIA. So as much 
as we have to respect the work that they are doing, they have 
to respect the work that we are doing. And so I want to 
appreciate--I do appreciate my colleagues. I think we are going 
to move in a process that--I am hopeful that we will have 
comfort that there is legislative--I would yield to my 
colleague, yes.
    Ms. Eshoo. For a few seconds. I appreciate what you said, 
and we have--Congressman Shimkus and I have worked on a lot of 
issues together very successfully over the years, so I 
appreciate what you said. I think where perhaps we weren't 
totally on the same side was having confidence in a multi-
stakeholder community, that that model could work. I don't ever 
remember myself questioning whether Congress shouldn't lean in, 
or anyone from our side, but that is the past. We are moving 
on.
    But I still think it is worth saying for the record, and we 
are going to work with you because we realize how important 
this is. And, I mean, for the amount of time that these people 
have invested is really glorious, and you should really be very 
proud of yourselves because I think you are the ones that have 
really moved the ball down the field, and said that to the 
Congress, and now the Congress is feeling far more confident. 
So thank you for yielding, Mr. Chairman.
    Mr. Shimkus. I am happy to do so, and let me raise a couple 
issues. I did submit this column for the record in the opening 
statements, and it just raises one of the issues. And, as we go 
through this process, what are the concerns out there? And I 
have so many questions, I have been scribbling notes down 
through the whole hearing. But I guess the bottom line is, the 
NTIA have what their listed objectives are, the question will 
then be, what is missing, and your advice and counsel could be 
helpful, what should be added to give us certainty?
    For example, in the article it says, consider the 
importance of .mil, which is sponsored by the United States 
Department of Defense, that houses some of the secure systems 
and e-mail addresses most vital to U.S. national security. 
Using them would place a considerable strain on the nation's 
defense. As yet, the Pentagon has no ongoing contractual right 
to it. The Department control over .mil is a legacy arising out 
of America's invention of the World Wide Web. And they also 
mention .gov and .edu as a concern. Does anyone reject the 
premise of that statement? Mr. DelBianco?
    Mr. DelBianco. Thank you, Mr. Shimkus. No, it is of vital 
importance. Think about what would happen. Think about the 
risks if our .mil and .gov were under attack, or redirected 
during an emergency. Maybe a coordinated attack that went after 
cyber structure and infrastructure. And it is particularly 
different for us.
    For 100 countries around the world, their .gov lives at the 
second level, .gov.ca for Canada, .gov.uk. Since it lives at 
that level, it is on a server on their soil completely under 
their control and law--is the root server, and it ought to 
maintain a U.S. presence for that reason. Now, we can get a 
contract with ICANN so that the U.S. DOD and GSA have permanent 
custody of those names, but that contract wouldn't be worth the 
paper it is printed on if ICANN left the U.S. as a legal 
presence, and if the root left our shores.
    Mr. Shimkus. Yes, and I will end on this, my time has 
expired. I will just say, I am curious to the contractual 
obligations, and NTIA's role, and where would people go? I 
mean, I think we weave a story that people will flee. I am not 
sure there is any other organized structure which they would go 
to. So, with that, I would like to recognize for 5 minutes Mr. 
Luja AE1n for questions.
    Mr. Luja AE1n. Mr. Chairman, thank you so very much, and 
thank you for this important hearing today. And, Mr. Chairman, 
I just want to say this at the start, as we make this 
transition, we must make every effort to ensure that the 
foundational values of the Internet, freedom of expression, and 
protection from government interference, are preserved. I think 
that is a value that we all share.
    And, Ms. Plonk, as I am sure that you are aware, for years 
Intel has been an important partner in New Mexico, and we 
certainly appreciate your presence, and we are always open to 
opportunities to talk about expansion. And so I just wanted to 
lay that out with my good friend Mr. Walden, who is also here. 
I know that we are always talking about opportunities at Intel 
in our various states and our various districts as well, but we 
really appreciate you being here.
    And as important partner who shares a very important 
perspective with what Intel does, not only in this space, but 
being the only presence in the United States in what you do, 
and we have to acknowledge that. We wanted to make sure that we 
are doing our part to protect that industry, and to provide 
opportunities for expansion. But can you explain further why 
you support this transition, and how it impacts your business?
    Ms. Plonk. Thank you for the question, and for the kind 
remarks about Intel. We are building a new universe of 
connected devices, the Internet of things, wearables, what have 
you. All of these devices are not very valuable to people 
unless they can connect, and so our business interest is in 
seeing the Internet grow. I mentioned in my testimony the rates 
at which we have experienced growth for the last 30 years. It 
is going to need to continue to grow exponentially to meet the 
demands for all of the connectivity, for all of the devices 
that we are building silicon to support.
    So we are concerned that--well, we support the transition 
because we think that is the best path to growth, at the end of 
the day. We are concerned about anything that would deviate 
from the path toward growth of the Internet, such as 
fragmentation, should countries decide to split off from a 
global Internet in a way that we couldn't do business as easily 
across borders, or the benefit of the platform for expression, 
and for interoperability wouldn't exist, at least in the way we 
know it today. All of those are huge drivers for not just 
Intel, but the IT and Internet community that, as I mentioned 
in my testimony, grew up in the United States, and to a large 
degree is headquartered here.
    So that is our fundamental business interest, so that is 
why we support the transition, and we are positive in the 
outlook of what we think is to come. All of my colleagues here 
have been deeply involved in the process. Mr. DelBianco has 
detailed out the accountability reforms. Mr. Shears has as 
well. So we are optimistic about the outlook for the future, 
and it is very critical to us.
    Mr. Luja AE1n. And, Ms. Plonk, your testimony discusses the 
challenges the U.S. faces in building international support for 
the multi-stakeholder model as well. You note that some 
countries advocate for centralized control of the Internet, or 
a greater role for international organizations, like the UN. 
What would be the impact on companies like Intel if these 
voices were to prevail, and we abandoned the successful multi-
stakeholder approach?
    Ms. Plonk. If we were to completely abandon the multi-
stakeholder processes that we know today, I don't know that 
anybody at this table would be able to participate going 
forward. A one country, one vote system, such as at the UN, 
doesn't allow for direct participation from the private sector 
or civil society. We would be having to work through 
governments and national governments. We wouldn't necessarily 
have the direct relationship that we have with ICANN to 
represent ourselves. So that is, I think, the short answer to 
the impact.
    Mr. Luja AE1n. And I guess the follow up to that, just 
straight to the point, is, when taking into account the 
stakeholder international opinion, does United States advocacy 
for a multi-stakeholder model free of government control 
strengthen or weaken Internet access and freedom for users in 
states like New Mexico?
    Ms. Plonk. I think the multi-stakeholder system allows the 
U.S. Government to engage in representing the country, 
representing the people, just the way that you do here in 
Congress. And the multi-stakeholder system also allows users to 
represent themselves directly, whether that is through 
participation in civil society organizations, or in trade 
associations through their businesses, however, they have 
access directly, as well as through the U.S. Government 
representing them.
    Mr. Luja AE1n. Thank you, and I thank you and all the 
witnesses for making yourself and your expertise available to 
us today. Thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognizes the gentleman from New Jersey, Mr. Lance, for 5 
minutes.
    Mr. Lance. Thank you, Mr. Chairman, and good afternoon to 
you all, and it is a pleasure to be with you. Mr. DelBianco, 
you have emphasized the need to stress test various proposed 
ICANN reforms. I certainly agree with that, and you have not 
suggested such tests for the technical operations of the domain 
name system. Can we assume that this is because they have not 
been tested in a real world setting for quite some time?
    Mr. DelBianco. Thank you, Mr. Lance. We have 26 stress 
tests. Four of them do address core naming functions, change 
failure, re-delegation failure, compromise of DNS set 
credentials, as well as dotless domains, and innovations of 
that nature. But in each case, the proposed planning that we 
have talked about, the powers, give the community and the 
direct naming customers the power to do escalation procedures 
on failures, as well as the ability for us to challenge 
decisions that were made, or inaction of ICANN.
    So the proposed community powers enable what we need there, 
but beyond that, we had no call to do stress testing of the 
underlying technical operation at the core of the Internet, 
because tech services at that level, those companies, they have 
actually been doing it for decades with--and they are tested 
every single day, I think, with stress tests of real world 
operation.
    Mr. Lance. Thank you. Ms. Plonk, you are nodding your head. 
I would certainly be interested in your comments.
    Ms. Plonk. Accountability over ICANN itself.
    Mr. Lance. Thank you. To the panel in general, whoever 
would like to respond, in your experience, what is the 
international perception of the U.S.'s role in the operations 
and oversight of the Internet? Is there a solution that is 
acceptable to the international community without risking the 
future of the Internet? Mr. Shears?
    Mr. Shears. Thank you. This is a wonderful question, 
because when we----
    Mr. Lance. I didn't write it, the staff wrote it, so----
    Mr. Shears. When we talk about the multi-stakeholder model, 
that does involve governments, so governments from different 
countries around the world are represented in these discussions 
that we are having, so they are fully apprised of what is 
happening on accountability, and they are fully apprised of 
what is happening on the IANA transition. So, yes, there is a 
considerable amount of support. There are, of course, the 
naysayers, and this is to be expected, but there is a 
considerable amount of support for the transition around the 
globe.
    Mr. Lance. Thank you. Others on the panel who might wish to 
comment? Yes?
    Ms. Kehl. Thank you. I would add, I think, that 
historically there has been a lot--think that the key is that, 
in recent years, the sort of erosion of the trust in whether we 
could continue to be that neutral steward, or whether we needed 
to be, has been quite effective. And so I think that is why we 
are at the point now where there isn't a way to put the 
toothpaste back in the tube. We can't go back on the promises 
that we have made. And so the solution that we come up with has 
to be one that recognizes that while, without sort of 
diminishing the important role that the U.S. Government has 
played, that it is time to move on.
    Mr. Lance. Thank you.
    Ms. Kehl. Thank you.
    Mr. DelBianco. And, Mr. Lance, I might add that the 
international perception comes down to how we interact, and I 
say we as Americans----
    Mr. Lance. Yes.
    Mr. DelBianco [continuing]. Because on every working group, 
at every ICANN meeting, there are, more often than not, more 
Americans than any other group.
    Mr. Lance. Yes.
    Mr. DelBianco. Sometimes Americans might be more than the 
rest put together because----
    Mr. Lance. Yes.
    Mr. DelBianco [continuing]. Countries don't have the same 
kind of presence of companies like Intel. So there is a 
dominant presence of Americans, and we conduct our business at 
ICANN primarily in English.
    Mr. Lance. Yes.
    Mr. DelBianco. The second is there is a precedent here. The 
laws of the State of California have served us very well. And 
while others from around the world chafe when we talk about 
maintaining the fundamental bylaw for California presence, it 
is not as if anybody has stepped up with a better idea, and a 
better place to take it. So there is a grudging acknowledgement 
that we built it, and have an awfully good system in place, but 
it kind of bothers them that we are probably more dominant than 
we otherwise should be.
    Mr. Lance. Well, thank you very much, and California is a 
great state. I yield back 17 seconds.
    Mr. Shimkus. Gentleman yields back his time. Chair 
recognize the gentleman from Illinois, Mr. Kinzinger, for 5 
minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman. I appreciate 
all of you being here and spending some time with us today, and 
I know you will be ready to go when that time comes too. But 
there has been some debate in the multi-stakeholder community 
over whether ICANN should be permanently granted stewardship of 
the IANA functions as a condition of the transfer. It seems 
some believe that in order to keep ICANN accountable to the 
community, there should be some mechanism to replace them. Mr. 
Shears, what are your arguments being made in regards to this 
issue?
    Mr. Shears. Yes, certainly CDT does not support ICANN 
having the IANA operations in perpetuity. We believe that being 
able to select another operator is a core accountability 
mechanism that keeps the IANA functions neutral, transparent, 
and accountable themselves, and that is probably one of the 
most important aspects, in terms of the package as a whole, the 
overall proposal.
    Mr. Kinzinger. Ms. Plonk, in your written testimony you 
also address this issue. Would you mind elaborating on it a 
little bit?
    Ms. Plonk. I support the comments by Mr. Shears that the 
ability to choose another operator through termination clauses, 
as is standard in contracts, certainly in the U.S. and in 
California, is normal, and should be a criteria for moving 
forward.
    Mr. Kinzinger. Does anybody else on the panel want to 
address it at all, or--yes, go ahead.
    Mr. DelBianco. Thank you, Mr. Kinzinger. I agree that we 
need to be able to reassign those IANA functions of names, 
protocols, and numbers. But when it comes to what an ICANN 
does, the policymaking part, it is a huge policymaking machine. 
It has signed thousands of contracts, and it has to enforce the 
contracts. I don't think dumping that makes much sense. But 
what does work is if ICANN is not doing that job well, we will 
dump the Board. We will get a new Board, rather than a new 
entity, to do the policymaking.
    Mr. Kinzinger. OK. Anybody else want to address that at 
all? Yes.
    Ms. Plonk. Just a follow-up, I appreciate Mr. DelBianco's 
clarification that there is this separation between the 
policymaking function that ICANN has and the execution of the 
IANA functions, which are largely administrative.
    Mr. Kinzinger. OK.
    Mr. Schaefer. If I may----
    Mr. Kinzinger. Yes, please.
    Mr. Schaefer. One thing. In my testimony I make reference 
to an article, and several statements, by Mr. Woodcock, who is 
part of the CRISP group, and also commentary by Milton Mueller, 
who is instrumental in the stewardship process as well, and 
they give some evidence, or at least stories of ICANN resisting 
the separability process, and I think that is something that 
is, as mentioned on the panel, very important to the 
accountability and the long term interests of this process.
    And in that discussion, they indicated that some 
individuals at ICANN had said that Congress was opposed to 
separability as part of this process. If that is the case, and 
we don't know whether it is or not. This is, again, a story, 
Congress should, I think, step forward and clarify whether it 
is or whether it is not opposed to this as part of the process. 
And I think, based on what I have seen and what I have heard in 
discussions that Congress is indeed not opposed to this, and in 
many cases is supportive of this process, and should state so.
    Mr. Kinzinger. And one proposal from ICANN accountability 
working group is to significantly change the appeals process 
for ICANN review. Can any of you elaborate on whether or how 
you think this will help improve accountability, and is there a 
better or more effective way of achieving the goal of 
accountability?
    Mr. DelBianco. Mr. Kinzinger, it is just one of the new 
powers we are granting, but I will just focus on it, since you 
asked. But the independent review process has been pretty 
inaccessible for many aggrieved parties. It is phenomenally 
expensive. It is as much as a million dollars to hire counsel, 
to pay the panelists that are pulled together for the 
independent review panel. There is a limited scope of matters 
that can be taken up, and it is very difficult for a broader 
community of aggrieved people to have standing as a group.
    So we are relying upon some very smart lawyers not working 
for ICANN, but working for the community, to dramatically 
improve the independent review process. We call that the crown 
jewel of our powers. We are going to make it more accessible, 
and if it is the community that filed the independent review, 
ICANN will pay for the panelists, not the community. We 
wouldn't be able to scrape that together.
    They have to use the standard of review that is baked into 
these newly improved bylaws, so the standard of review will be 
known, which includes a tight limitation on ICANN's scope 
creep. And then finally, when the decision comes back from the 
independent review panel, we are seeking to ensure that it is a 
binding decision on ICANN that will force them to do over a 
decision that the community has rejected.
    Mr. Kinzinger. Thank you. And, Mr. Chairman, I only have 10 
seconds left, so I yield back.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognizes the gentleman from Florida, Mr. Bilirakis, for 5 
minutes to----
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate the 
panel's testimony today as well. One of my greatest concerns 
with this transition is the susceptibility of the ICANN to 
manipulation by foreign governments. Mr. DelBianco, how will 
stakeholders protect the process from foreign governments if 
they continue a push for power or unjust control once the 
United States withdraws its stewardship role?
    Mr. DelBianco. Thank you, Mr. Bilirakis. This was one of 
the stress tests we discussed in front of your Committee last 
April. And it is a genuine concern that governments together 
would exert more influence over ICANN without actually having 
reached a consensus. Today the Government Advisory Committee, 
or GAC, G-A-C, operates under its own self-imposed rule of 
consensus before it offers formal advice to ICANN. And when 
they offer formal advice at ICANN, ICANN is strongly presumed 
to be following the advice. And when it doesn't follow the 
government advice, ICANN has to enter a period of trying to 
find a mutually acceptable solution with the Government 
Advisory Committee. No other advisor or stakeholder group has 
that kind of due deference with ICANN. I think it is a 
recognition of the power of governments.
    So many governments have said they would prefer to change 
to majority voting. It is a little messy to get consensus, and 
they would like a majority, and I have to express the concern 
about that. Sometimes there are only 60 or 70 countries at a 
GAC meeting. If you can scrape together 34 votes for an 
oppressive new policy that gets in the way of free expression, 
that would be bad. So we made a change to the bylaws as part of 
our proposal that we only have to give that due deference to 
the government advice if it is actually supported by consensus.
    Mr. Bilirakis. Thank you, Mr. DelBianco. Got it right that 
time. Next question, a number of U.S. companies, including 
yours, Ms. Plonk, have expressed support for this transition--
--
    Ms. Plonk [continuing]. Process in much the same way that 
they do today, through the Government Advisory Council to 
ICANN, as well as the various communities within the United 
States, business, civil society, and academia will have as 
much, if not more, access to provide accountability for the--
both the execution of the IANA functions, but also the overall 
policymaking role that ICANN has. So I view it as a very 
positive----
    Mr. Bilirakis. What about congressional----
    Ms. Plonk [continuing]. Thing for the U.S.
    Mr. Bilirakis [continuing]. Oversight?
    Ms. Plonk. So you will continue to have oversight over 
NTIA, and their work on this issue. If they continue to 
participate in the multi-stakeholder process, I don't see 
dramatic changes in that regard.
    Mr. Bilirakis. Anyone else want to comment on that?
    Mr. Shimkus. Will the gentleman yield, Mr. Bilirakis?
    Mr. Bilirakis. Yes.
    Mr. Shimkus. But we will lose the authority, or the 
oversight that we have today. I mean, it is not fair to say, it 
is the same thing. There is a definite--Mr. DelBianco? There is 
a definite shift.
    Mr. DelBianco. You are absolutely correct. A hearing like 
this would perhaps still happen post-transition, but the 
audience for your hearing is not going to be ICANN. The 
audience would be our NTIA, and we are one country's vote among 
the hundreds of votes that are on the GAC. There is no special 
role anymore for the inventor----
    Mr. Shimkus. Right, and that is all the point I was trying 
to make. I will yield back to Mr. Bilirakis.
    Mr. Bilirakis. OK. Thank you.
    Ms. Plonk. There is no voting on the GAC, though, just to 
make the point.
    Mr. Bilirakis. Mister----
    Mr. Schaefer. One other thing I would just emphasize, there 
is nothing stopping individual members of Congress, or Congress 
as a body, from submitting comments to various proposals, or 
any other changes through the comment process at ICANN. In 
fact, it could do so right now. And that is actually something 
I would think that Congress would be interested in engaging in 
during this process, while this is all going on. And that would 
continue to be an avenue in the future.
    Mr. Bilirakis. Right. Thank you very much. Mr. Shears, in 
the past some have argued that, through relinquishing or 
contractual relationship with ICANN, accountability might 
suffer in the transition. In your testimony you mentioned the 
current hybrid proposal separating functions and oversight. You 
conclude by saying this can work only if ICANN is held 
accountable to its own internal governance structures, and 
stressed the multi-stakeholder community needs to be more 
empowered than it is today for it all to work. Can you 
elaborate on this, and if you expect this approach to ensure 
accountability will be successful?
    Mr. Shears. Yes, thank you. So the current model that is 
part of the IANA transition does foresee that ICANN is the 
contractor, and a subsidiary of ICANN is the operator of the 
IANA functions. So in order for that to work, as I said in my 
testimony, it is absolutely essential that the oversight of the 
IANA operator is absolutely neutral, and transparent, and 
accountable. For that to be the case, it means that the 
community needs these additional powers that we are talking 
about. Because at the moment, those powers don't exist.
    So at the end of the day, to hold ICANN true, and to ensure 
that that oversight exists over the IANA operator, we need 
these accountability measures that we have been talking about 
in this hearing.
    Mr. Shimkus. Gentleman's time has expired. Chair now 
recognize the gentleman from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Well, thank you, Mr. Chairman. Mr. DelBianco, 
back to you. One proposal from the ICANN accountability working 
group is the incorporation of the agreements made between ICANN 
and NTIA, and the affirmation of commitments into the governing 
documents of ICANN. Can you elaborate for us on whether or how 
you think this will help improve accountability?
    Mr. DelBianco. Thank you, Mr. Johnson. The affirmation of 
commitments was really an outstanding piece of work by the USA 
in 2009, and it came up with a set of principles that ICANN had 
to commit to, as well as reviews it had to commit to allow the 
community to perform. But these commitments were between ICANN 
and the U.S. Government. It is a bilateral agreement. It is 
exactly the kind of thing that the IANA contract was, that 
would be the next target for elimination by governments around 
the world who don't want us to have a unique role.
    And that is why the very first stress test that I presented 
to this Committee last April was ICANN, if they were to cancel 
the affirmation of commitments, we would lose all of that. So 
this working group spent a good deal of time, it occupies about 
15 pages in our proposal, of bringing over all of the relevant 
commitments from ICANN, and we improved them as we brought them 
over. And then we took a look at the reviews that are done, and 
gave the community more power to set who is on the review 
teams, to sunset old reviews, create new ones, and to more 
appropriately hold the Board accountable to the 
recommendations. So I hope that your reading of our proposal 
will concur that we have done, I think, an adequate job of 
bringing all of the key commitments from the affirmation into 
the bylaws.
    Mr. Johnson. OK. All right. Another question for you, then. 
Another proposal from the ICANN accountability working group is 
greater power to the constituent communities within ICANN, 
particularly in regards to the group's budget, operating plans, 
and bylaws. In addition, the community would be able to approve 
changes to the fundamental bylaws, and remove members of the 
ICANN Board. Can you share your thoughts on whether or how you 
think this will improve accountability?
    Mr. DelBianco. Those five powers are simply essential, and 
they stop short of that fifth one of spilling the Board. That 
scene is the nuclear option, not the option that would 
operationally be very useful. But each of those interim steps 
are, amazingly, lacking today. The community has no ability to 
block a budget, a strat plan, no ability to block a Board 
approved bylaws change.
    And so the idea of building these powers in came very 
clearly to the community through a series of public comments 
that were conducted last summer, right after NTIA made this 
announcement. So it was very easy to gather a consensus of what 
powers the community needed, and they are all there, with the 
intent of being sure that we keep ICANN's management and Board, 
which is really accountable to the fiduciary concerns of the 
corporation, to keep them from going off the rails. So I think 
we are going to be able to answer your question with a yes.
    Mr. Johnson. OK. Well, good. Final question for you, are 
there better or more effective ways of achieving accountability 
that I haven't talked to about here? You have got about 2 
minutes to tell me some others, if you would like to.
    Mr. DelBianco. Thank you, Mr. Johnson. So far, and I will 
happily yield to other panelists, but so far the proposals are 
complementary. They are not competing proposals. There is a 
complimentary set of proposals on the naming, and protocols, 
and numbers, and there is the accountability proposal. That is 
that big second blue bar. And the reason it starts a lot later 
than the first blue bar is that ICANN management Board didn't 
want to admit that there needed to be a conversation about 
accountability. So a lot of this was over the objections of 
ICANN, but now we are all on Board, and we are all 
participating.
    As for other measures--if I were to start over and invent 
the next ICANN, and it is like when you ask an Irishman for 
directions, and he said, well, I wouldn't start from here, it 
is not possible, I think, to accommodate all of the disruption 
it would take to tear up and rearrange all of the contracts 
that are written with all the registries and registrars, all of 
the arrangements, the policymaking, the compliance bureau. So 
we really don't think we need to start over with a new model, 
with a new ICANN. We want to give new powers to the community 
to hold ICANN accountable to its mission.
    Mr. Johnson. OK. Well, great. Mr. Chairman, I yield back a 
whole 46 seconds.
    Mr. Olson [presiding]. Thank you. The Chair recognizes the 
gentleman from Missouri, Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. And K-e-h-l, how do I 
pronounce that?
    Ms. Kehl. Like the vegetable, Kehl.
    Mr. Long. Kehl, OK. That is what I thought it was. OK. I 
thought I heard that earlier, but I don't always hear things 
correctly. But, Ms. Kehl, what if the transition doesn't go 
through? What is the downside?
    Ms. Kehl. I think the downside, if the transition doesn't 
go through, is the risk that there is immense pressure on this 
to happen in some other way without the U.S. Government's 
ability to set the terms, right? So this idea that the wheels 
were in motion from other organizations to try to find--from 
other parts of the community, sorry, not other organizations, 
to try to make this happen. So to say, will we reach consensus, 
and try to force the U.S. Government's hand?
    There is the risk that there have been governments that 
have tried to bring this into the International 
Telecommunications Union, which is a body of the United 
Nations. When I was a member of the U.S. delegation in South 
Korea in October, and when we were there, that was something 
that came up I think because of the existence of ICANN, and the 
ongoing process. That was not a serious proposal, but those 
proposals will be strengthened if the transition doesn't go 
through.
    And I think the other risk--while I think this is not a 
nearly as likely one, is that you end up with the system 
fragmenting. You end up with multiple competing sources of 
authority because other people start to say, we want to take 
this away, and that almost happened in the '90s, when--before 
the U.S. Government decided to do this.
    So that risk that it fragments, and then this system that 
works very efficiently and very well, that most people don't 
even know exists, suddenly doesn't work, right? And so that is 
a huge concern as well. I think that is a very unlikely 
scenario, but it is a possibility, if we sort of continue 
down--if we don't resolve this, and we go down this alternative 
path.
    Mr. Long. Say that again, now, on that last part? It is 
unlikely that what happened?
    Ms. Kehl. It is unlikely that the system would fragment, 
that you would end up with multiple competing sources of 
authority. But, if you did, the consequences would be 
incredibly significant.
    Mr. Long. As they say, there is many a slip between the cup 
and the lip, so during this handoff, there is some chances of 
some pretty bad things happening also?
    Ms. Kehl. I think there are risks. There are risks that--
again, that something fragmented, or that the DNS could be 
used, the domain name system, as leverage to impose other 
policies, or to expand ICANN's role. And that is why I said the 
heart of this is the accountability process, and this idea that 
we have checks and balances to deal with ICANN's authority, and 
also this concept of enumerating the powers, and so making it 
very clear that ICANN's mandate is narrow, it is technical. 
Their job is to make sure that the system runs, and that it 
works, that it doesn't fragment, and that most Internet users 
don't know it exists.
    Mr. Long. Anyone want to dispute what she said? I saw a lot 
of heads nodding in agreement. Anybody dispute what--yes, sir, 
Mr. Shears.
    Mr. Shears. Yes, thank you. I think one of the other 
things--the reasons why this transition is so important is 
because we are living the multi-stakeholder model right now in 
these working groups. We are living the multi-stakeholder model 
right now. These working groups are multi-stakeholder, and they 
are working very well. For the transition not to occur would 
undermine that commitment that the U.S. Government has to 
multi-stakeholder model, and international Internet policy 
issues, and I think that would be a damaging blow to the 
legitimacy of the model as a whole. So that is another 
consequence of this transition not going ahead.
    Mr. Long. Mr. Schaefer?
    Mr. Schaefer. I agree with the assessment there. There has 
been a concerted effort by a number of countries to try and 
shift authority away from the United States and ICANN into the 
international model, the multi-lateral model, ITU or other 
forms, over years. The U.S. has successfully pushed those back. 
The expectation now is so high that it is very unlikely that we 
can get away with not proceeding down the path toward the 
transition to our private sector overseeing, or withdraw from 
the U.S. oversight of ICANN.
    But one thing I will say is that we need to be very careful 
not to go down and agree to a transition proposal that is 
substandard just because we fear something else worse might 
come along. I think the United States needs to be very clear 
about what is and what is not acceptable, and hold to that 
line, because a substandard proposal could be just as bad as 
the other----
    Mr. Long. Well, shouldn't .mil, .gov, shouldn't those be 
exclusive, perpetual, and at no cost? Are we going to be able 
to do that?
    Mr. Schaefer. Mr. DelBianco talked about that a little bit 
earlier. I believe that the United States should make, 
condition on the transition, its exclusive ownership of those 
two TDLs.
    Mr. Long. You believe what now?
    Mr. Schaefer. That the United States should make, as a 
condition of the transfer, its ownership of those two----
    Mr. Long. Yes, I heard what Mr. DelBianco said earlier, but 
I just wanted to kind of figure out how to tie it into what you 
were saying. So, with that, I don't have any time to yield 
back, but if I did, I would.
    Mr. Olson. Gentleman's time has expired. The Chair 
recognizes the gentleman from New York, Mr. Collins, for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman. It has been 
interesting, as we have kind of deep dived this issue, to jump 
in. This would be your chance to take an extra 4 minutes as we 
are summing to see if, on the record, you would like to bring 
something up that we in Congress should be concerned about, 
worried about, or should take action on. So why don't we maybe 
start with Mr. DelBianco, and see if you have got something to 
add here as we conclude?
    Mr. DelBianco. One of the concerns is keeping ICANN to its 
limited technical mission. So we have proposed a change to 
their fundamental bylaws to say that ``ICANN shall not 
undertake any other mission not specifically authorized in 
these bylaws.'' So it is a much tighter rein to put on it. And 
the importance of that making it through cannot be understated. 
We need to be sure that ICANN will accept and implement that 
change, and not mince words----
    Mr. Collins. But who takes the leadership role to make sure 
that happens?
    Mr. DelBianco. That is a great question, because that role 
is going to end up falling to the community first, to NTIA, who 
will basically say whether they support the community 
transition plan that is up here. And that is why we said to 
this Committee, do your best to support and encourage that NTIA 
consistent----
    Mr. Collins. So, to some extent, NTIA has a veto today that 
is the ultimate arbiter of this? They have got a veto, and 
they----
    Mr. DelBianco. For the last time.
    Mr. Collins. For the last time? So they need to make sure 
they exercise that, and the community needs to make sure we in 
Congress know if there is something that is about to----
    Mr. DelBianco. Secretary Strickley says all the time that 
it would be a failure of the entire process if we ended up 
having a veto. Just like I said to Representative Shimkus, it 
would be a failure if GAO studied it, and came back and said, 
this will never work. We have to be engaged now. And NTIA is, 
and, thankfully, Congress is as well. By engaging early, there 
is no risk that we get to the end of the road and say, this 
fails.
    Mr. Collins. Right, but it is our failsafe, if you will. 
Would anyone else like to comment here, as we are closing out?
    Mr. Schaefer. I would like to----
    Mr. Collins. Yes, go ahead.
    Mr. Schaefer [continuing]. Things. One, I just can't 
emphasize enough that it is important that these changes be 
implemented before the transition. The leverage leaves once 
that transition occurs, and NTIA no longer is in the position 
that it currently is in. And, second, on the accountability 
track, there are two what they are calling work streams. There 
is work stream one, which there are--the changes that they deem 
are so important they need to be in place before the transition 
occurs. That--there is also work stream two, which are deemed 
to be important, but not necessarily important enough to be in 
place before the transition occurs.
    Work stream two still has a lot of important things in 
there, and there needs to be a great deal of assurances from 
ICANN, and from the multi-stakeholder community, through this 
process that those work stream two items will not be forgotten 
once this transition----
    Mr. Collins. So what is the timing? If you were to say, you 
know, there is not a date certain, a time certain, is there? I 
mean, so the clock is kind of ticking, but when do you see this 
reaching some endpoint?
    Mr. DelBianco. You know, first crack, as the chart I put up 
there showed, early next spring would be the earliest, and it 
might go as long as late next summer into next autumn.
    Mr. Collins. But we are talking about within a year?
    Mr. DelBianco. Yes, sir. And I should answer, with respect 
to work stream one and two, the community believes that, this 
is in response to what Brett said, we aim to give the community 
sufficient powers in work stream one so that the Board 
management cannot block the implementation of our work stream 
two items. So if we have the powers we have described to you--
--
    Mr. Collins. Yes.
    Mr. DelBianco [continuing]. And we get to work stream two, 
not even 2017, and the Board is not going to concede, that is 
when we start invoking powers like spilling the Board, 
challenging their decisions.
    Mr. Collins. And who sets the Board? Are there going to be 
20 people on the Board, and who picks them? I know how 
shareholders work in private corporations. This is a little bit 
more confusing than that.
    Mr. DelBianco. The Board is a--well, it is kind of an 
interesting and complex structure. There is a Board member that 
is appointed by a technical community. There are two Board 
members that are appointed by the generic name supporting 
organization. We have the country code organizations, security 
stability advisory committee, the root server committee. The 
governments have a non-voting Board member. There is the 
nominating committee----
    Mr. Collins. So are we talking about 30, 40 people, 100 
people?
    Mr. DelBianco. 20ish.
    Mr. Collins. 20ish people, and they could be replaced, I am 
assuming, by the nominating group? Does the NTIA get to put two 
people on, or nothing? Interesting. Well, I guess I have 3 
seconds left or so, so I will yield that back, and thank the 
panelists for your dedication to this issue, which is pretty 
deep in the weeds, but a very important thing. So, yield back.
    Mr. Olson. The gentleman yields back. The Chairman has 5 
hours of questioning. Good, you are paying attention. 5 
minutes.
    I want to sum up. Pretty clear that back home people are 
more concerned about what will happen if some foreign 
government that is hostile to our nation takes over the role 
played by ICANN right now. I am a former Naval aviator, so we 
plan the worst case scenario, what bad could really happen. So, 
if bad things happen after this transition occurs, what is our 
recourse? What can we do to stop this from happening in the 
future?
    If ICANN goes into effect, all of a sudden some bad actors 
take over, can we stop it? Can we recover? Because that is what 
they are concerned about back home. We turn it over, and it 
goes over forever. I mean, do we have some sort of breaker, 
some sort of mechanism to say----
    Mr. DelBianco. Right.
    We have several stress tests about that, and it can be most 
easily summed up by saying that if the community, the people 
that actually use the top level domain table, the root table, 
believe that it has gone off the rails, that governments are 
suppressing free expression, or commerce, it will take the IANA 
contract away from ICANN and give it to someone else. And that 
can be done in an instant. The root table is small enough to 
fit on an index card, and it can be hosted by others, and 
replicated around the world.
    So the ability of separability, Audrey talked about this 
earlier, everyone agreed we needed that. That is our ultimate 
trump card against the scenario you described.
    Mr. Olson. And, Ms. Plonk, you are nodding your head. Do 
you agree with that? Want to add anything, ma'am?
    Ms. Plonk. I do. I would only add that the other two 
communities, numbers and protocols, also have plans for how 
they will internally, you know, transition, if that needs to 
happen.
    Mr. Olson. Ms. Kehl?
    Ms. Kehl. I would also add that I think that this idea, it 
is always important to remember that we are a part of the 
community, and by that I mean the panelists here, and also the 
U.S. Government. So we are stakeholders in this system as it 
goes forward, and I think the shared goals of planning against 
that worst case scenario and the goals of protecting the free 
and open Internet, are ones that are broadly shared by members 
of the community in the United States and around the world.
    And there is this really active group of civil society, of 
companies, of academia, and of governments that are dedicated 
to these issues, and they are, I think very vigilant in making 
sure that we avoid those kinds of scenarios. And so we are 
still a part of that community, and that is really powerful.
    Mr. Olson. Mr. Shears, your comments, sir?
    Mr. Shears. Thank you. I would say that the measures that 
we are trying to put in place on the accountability side are 
designed to militate against capture and mission creep, and 
that is part of that process, as you say, of--what happens when 
things go wrong? We are working in a system now where, 
hopefully, we will put in place measures where that will be 
very slim chance of that happening.
    Mr. Olson. Mr. Schaefer, your comments, sir?
    Mr. Schaefer. I would just like to echo a statement made by 
Mr. Shears in his opening statement, about how all these issues 
and these measures are intertwined, they are inter-reliant on 
each other, and I would highly recommend against moving forward 
on one without moving forward on all of them together.
    Mr. Olson. So you all seem--if I just want to put words in 
your mouth, you all seem to think that this is OK, it is safe, 
we don't have to worry about it. There is all sorts of checks. 
You don't know what will happen, but if bad things happen, we 
can stop it, control it. Yes, Mr. DelBianco, Ms. Kehl, Ms. 
Plonk? OK.
    Well, guys, I have one last comment. I want to follow up on 
the comments by former Chairman Barton and Mr. Doyle from 
Pennsylvania about moving the headquarters of ICANN to another 
country. Do those options include a state that was a former 
country? Is that considered another country, like the Republic 
of Texas? Does that work for there? Because, again, you have 
got me if that is what is going to happen. Is that--
consideration? Laughter, OK.
    Members have 5 days to submit questions for the record. 
Without objection, this hearing is adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    The Internet is one of the most vibrant and dynamic drivers 
of the economy--both here and across the globe--and this 
committee has made it a priority to ensure that it will 
continue to thrive unfettered well into the future. Today the 
subcommittee takes another look at the future of Internet 
governance and the proposed transition of IANA oversight from 
the U.S. government to the multi-stakeholder model.
    Last Congress, we advanced the DOTCOM Act as a measure 
intended to press pause before NTIA relinquishes the United 
States' role in overseeing the Internet's root zone functions. 
The U.S. has held this important responsibility for many years, 
and before we take an irreversible leap, we must carefully look 
at and understand all of the risks and consequences. Last year, 
we requested that the nonpartisan GAO examine the proposed 
transition and they will be releasing a report later this year 
with their findings. Thorough and honest reviews like GAO's are 
critical in helping all parties to make the most informed 
decision possible.
    Today's hearing will show there has been a great deal of 
work within ICANN, NTIA, and the multistakeholder community to 
come up with a workable proposal that will preserve Internet 
openness and freedom. I appreciate the effort that has gone 
into developing a solution, and look forward to hearing more 
about the proposal in the months to come. However, I want to 
strongly reiterate the need for Congress to play a role in this 
transition, and to serve as a watchdog as we move forward.
    We are not seeking to prevent this transition, or to delay 
it for the sake of delay. We are exercising our oversight role 
over NTIA and ensuring that any successor solution will fit the 
criteria NTIA has established for a successful transition. 
We've said it time and again, and it bears repeating: the 
future of the Internet as we know it is at stake if we don't 
get this right.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
